United States
Department
of Agriculture

Office of
Inspector
General

No. 62
November 2009




                 Office of Inspector General


                 Semiannual Report to Congress
                 Second Half 2009              April 1, 2009 – September 30, 2009
Key OIG Accomplishments in This Reporting Period
RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued
       Number of Reports	                                                                                25
       Number of Recommendations	                                                                       139
Management Decisions Made
       Number of Reports	                                                                                19
       Number of Recommendations	                                                                       111
Total Dollar Impact (Millions) of Management-Decided Reports	                                          $2.9
       Questioned/Unsupported Costs	                                                                   $0.2
       Funds To Be Put to Better Use	                                                                  $2.7
Summary of Investigative Activities
Reports Issued	                                                                                         147
Impact of Investigations
       Indictments	                                                                                     289
       Convictions	                                                                                     454
       Arrests	                                                                                         568
Total Dollar Impact (Millions)	                                                                       $36.5
Administrative Sanctions	                                                                               252

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2009)
1) Interagency Communications, Coordination, and Program Integration Need Improvement
Related material can be found on pages 1, 4, 7, and 21.
2) Implementation of Strong, Integrated, Internal Control Systems Still Needed
Related material can be found on pages 7, 9, 22, 25-26.
3) Continuing Improvements Needed in Information Technology (IT) Security
No work was reported during this period.
4) Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
Related material can be found on page 5.
5) Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
No work was reported during this period.
6) USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade Challenge
Related material can be found on pages 1-2, 16.
7) Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and Reduce the Cost
of Fighting Fires
Related material can be found on page 20-21.
8) Improved Controls Needed for Food Safety Inspection Systems
Related material can be found on page 1-2.
9) Implementation of Renewable Energy Programs at USDA
No work was reported during this period.
10) Implementation of the American Recovery and Reinvestment Act of 2009 (Recovery Act)
Related material can be found on pages 12-15 and 26.
Message From the Inspector General
I am pleased to provide the Semiannual Report to Congress for the Office of Inspector General (OIG),
U.S. Department of Agriculture, (USDA), for the 6-month period ending September 30, 2009. OIG has been
proactive in providing oversight to USDA programs, particularly the new economic recovery programs funded
under the American Recovery and Reinvestment Act of 2009 (Recovery Act). During fiscal year (FY) 2009, OIG
initiated 31 Recovery Act audits, completed 2, and issued 16 fast reports—quick turnaround reports intended
to alert management to immediate issues. We have 29 Recovery Act projects planned for FY 2010. OIG’s
investigation program has focused on enhancing fraud awareness among USDA employees and clients.
This report summarizes the most significant OIG activities during the period, organized according to our strategic
goals:
σσ   Safety, Security, and Public Health—Our audits found that (1) the Food Safety and Inspection
     Service (FSIS) could strengthen its oversight by analyzing the reasons why foreign countries
     have rejected shipments of U.S. beef products when these products are presented for re-entry
     into the United States, and (2) the Natural Resources Conservation Service (NRCS) needs
     to place more emphasis on the rehabilitation of high-hazard dams. Our investigative work
     resulted in sentencings for food tampering, smuggling, animal fighting, and forgery.
σσ   Integrity of Benefits—An audit disclosed that payments were made improperly in the
     Environmental Quality Incentives Program. In addition, we found a number of weaknesses in the
     Rural Development and Farm Service Agency Recovery Act programs. A number of sentencings
     were obtained after our investigations in the farm, crop insurance, and feeding programs.
σσ   Management Improvement Initiatives—Our audit work found that the Forest Service (FS) needs
     to strengthen its case for new firefighting aircraft. Our investigations obtained sentencings for theft
     of Government funds, embezzlement, and illegally buying and selling prescription drugs.
σσ   Stewardship Over Natural Resources—An audit concluded that management control
     weaknesses jeopardized the NRCS’ goal of using the Conservation Security Program (CSP) to
     reward those meeting the highest standards of conservation and environmental management
     in their operations. We also found risks in the NRCS and FS Recovery Act programs.
During the reporting period, we conducted successful investigations and audits that led to 568 arrests,
454 convictions, $36.4 million in recoveries and restitutions, 115 program improvement recommendations, and
$2.9 million in financial recommendations.
These monetary and program improvement results would not have been possible without the strong commitment
of Secretary Tom Vilsack, Deputy Secretary Kathleen Merrigan, and the Congress to ensure that USDA programs
are delivered effectively and with integrity. Their continuing interest, support, and trust are vital to our success.




Phyllis K. Fong
Inspector General
Contents
 Safety, Security, and Public Health. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

 Integrity of Benefits. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6

 Management Improvement Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19

 Stewardship Over Natural Resources. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25

 Gauging the Impact of OIG . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28

 Abbreviations. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44
                                                                    Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                    In the second half of FY 2009, we devoted 19 percent of our
                                                                         total direct resources to Goal 1, with 99.5 percent of these
Strengthen USDA’s ability to implement safety and                        resources assigned to critical/high‑impact work. A total of
security measures to protect the public health as                        96.7 percent of our audit recommendations under Goal 1
well as agricultural and Departmental resources.                         resulted in management decision within 1 year, and 47.4
                                                                         percent of our investigative cases resulted in criminal, civil,
To help USDA and the American people meet critical
                                                                         or administrative action. OIG issued 4 audit reports under
challenges in safety, security, and public health, OIG provides
                                                                         Goal 1 during this reporting period and a total of 7 during
independent and professional audits and investigations in these
                                                                         the full fiscal year. OIG’s investigations under Goal 1 yielded
areas. Our work addresses such issues as the ongoing challenges
                                                                         103 indictments, 305 convictions, and about $1.1 million in
of agricultural inspection activities, safety of the food supply,
                                                                         monetary results during this reporting period and a total of
and homeland security.
                                                                         204 indictments, 361 convictions, and about $2.8 million in
                                                                         monetary results during the full fiscal year.



  Management Challenges Addressed UNDER GOAL 1
  σσ    Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 2, 3, and 4)
  σσ    Continuing Improvements Needed in Information Technology (IT) Security (also under Goal 3)
  σσ    Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
  σσ    USDA Needs To Develop a Proactive, Integrated Strategy To Assist American
        Producers To Meet the Global Trade Challenge (also under Goal 3)
  σσ    Better Forest Service Management and Community Action Needed To Improve the Health of the
        National Forests and Reduce the Cost of Fighting Fires (also under Goals 3 and 4)
  σσ    Improved Controls Needed for Food Safety Inspection Systems




EXAMPLES OF AUDIT AND INVESTIGATIVE                                      provided to supervisors as its corrective action; however, the
WORK FOR GOAL 1                                                          agency must ensure that supervisors implement this guidance
                                                                         by thoroughly assessing the export duties of inspection
Food Safety and Inspection Service (FSIS) Oversight                      personnel. In addition, FSIS could further strengthen its
of the Export Process Needs Improvement                                  oversight by analyzing the reasons why foreign countries have
The Chairman of the Senate Budget Committee asked OIG                    rejected U.S. beef products when these products are presented
to assess FSIS’ export certification process because of concerns         for re-entry into the United States. FSIS agreed with our
over the trade impact of exported U.S. beef product rejected             findings and recommendations. (Audit Report No. 50601-06-
by foreign countries. We determined that FSIS had identified             Hy, Assessment of USDA’s Controls To Ensure Compliance
and addressed concerns with the requirements imposed by the              With Beef Export Requirements)
foreign countries. We also evaluated the Agricultural Marketing          FSIS Has Strengthened Its Process For Evaluating the
Service’s (AMS) and FSIS’ implementation of OIG audit                    Success of Product Recalls, But Improvements Are
recommendations made in 2006. We concluded that AMS
                                                                         Still Needed
and FSIS had adequately implemented five of the six prior
recommendations to improve the oversight of export activities.           In response to prior OIG audits, FSIS made improvements to
For the sixth recommendation, FSIS updated guidance                      the process by which agency officials assess the effectiveness of




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half             1
                                                                     Goal 1




product recalls. However, our audit of FSIS’ efforts to evaluate          Washington Man Sentenced for False Communication
a large ground beef recall in 2008, totaling over 143 million             Regarding Tampering With a Consumer Product
pounds, showed that FSIS still needed to take additional                  and False Statements to a Federal Law
actions. FSIS evaluates a recall’s success by following up with           Enforcement Officer
customers of the company affected by the recall and subsequent
                                                                          In June 2009, a Federal judge sentenced a Federal Way,
customers throughout the distribution chain; but FSIS had
                                                                          Washington, man to 1 year of probation after he was found
no national guidance to replace sampled customers who were
                                                                          guilty in January 2009, following a 4-day jury trial, of making
found not to have actually purchased any of the recalled
                                                                          a false communication regarding tampering with a consumer
product. In the case of this recall, 41 percent of the companies
                                                                          product and providing a false statement to a Federal law
FSIS contacted had not received the recalled product and were
                                                                          enforcement officer. The man made a telephone threat to
not usable in evaluating the recall. Accurate customer sampling
                                                                          a grocery store claiming that he had tampered with food
is necessary since FSIS depends on statistical projections to
                                                                          product by injecting rat poison into ham products intended
support its conclusions in these reviews. FSIS also needed to
                                                                          for sale to the public. The man was upset at the grocery store
create a written process, to be followed by all of its district
                                                                          for having wrongly accused him of shoplifting meat product
offices nationwide, to ensure that they all follow a standardized
                                                                          from the store. FSIS officials detained 824 packages of various
and statistically-valid process for evaluating recalls.
                                                                          meat products, weighing approximately 795 pounds, which
FSIS agreed with our recommendations to develop a written                 were present on the store shelves at the time of the alleged
nationwide process to be followed by all FSIS field units                 tampering. The detained meat products were disposed of, and
that will eliminate duplicate companies from its selection                no known consumer illnesses were reported from this event.
list, replace sampled companies who did not receive recalled
product, and describe the circumstances under which a                     California Man Sentenced for Smuggling
statistician needs to be consulted during the recall effectiveness        Duck Products
checks process. (Audit Report No. 24601-10-Hy, Oversight of               In August 2009, the owner of a California seafood trading
the Recall by Hallmark/Westland Meat Packing Company)                     company was sentenced to 3 years of probation, forfeited
                                                                          $34,712, and was ordered to pay a $3,000 fine by a Federal
Georgia Man Sentenced to 100 Years for Aggravated
                                                                          court in the Central District of California. In August 2002,
Assault and Child Cruelty for Poisoning His Children
                                                                          USDA inspectors went to an import company and observed a
In an investigation previously reported, a Stockbridge, Georgia,          sea cargo container being delivered. Even though the owner of
man was sentenced to 60 months of imprisonment and                        the company said the container held only seafood, a subsequent
36 months of probation in April 2007 after he pled guilty in              inspection of the container revealed 45 cases of undeclared,
Federal court to food tampering. On three occasions, the man              prohibited duck feet from Vietnam. In January 2009, the
claimed that his two young children had been harmed by eating             owner was charged with smuggling, false statements, and
contaminated soup. The younger child, who was 18 months                   prohibited acts pertaining to adulterated product. The owner
old, had to be airlifted to an Atlanta hospital for critical              pled guilty to the three counts in May 2009.
care. A sample of the soup submitted to a Food and Drug
Administration (FDA) laboratory for analysis tested positive              Major Animal Fighting Criminal Enterprise
for Prozac and other antidepressants. The investigation revealed          Disrupted in Virginia
that the father was responsible for contaminating the soup. In            An extensive investigation of illegal cockfighting in Virginia
May 2009, the man was tried on aggravated assault and child               resulted in the successful Federal prosecution of numerous
cruelty charges by the Clayton County District Attorney’s                 individuals. The investigation first focused on four individuals
Office. He was sentenced in Clayton County Superior Court                 who owned, operated, or supported a sportsman’s club that
to 100 years in prison. This investigation was conducted jointly          hosted illegal cockfights almost weekly in a building outfitted
with FSIS; the Clayton County, Georgia, Police Department;                for cockfighting. Participants throughout the East Coast
and the FDA.                                                              brought their fighting birds, paid entry fees, and illegally




2     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                  Goal 1




gambled on the outcomes of the fights. The then-sheriff of Page        (DHS) Immigration and Customs Enforcement (ICE)
County accepted campaign contributions to protect the club             determined that a company in Florida conspired with three
from raids by law enforcement.                                         growers in Guatemala to ship into the United States snow peas
                                                                       and sugar snap peas that were contaminated with hazardous
                                                                       levels of pesticides. In May 2008, the corporation and seven
                                                                       individuals were charged in the Southern District of Florida
                                                                       with conspiracy, false statements, smuggling, and obstruction of
                                                                       justice. In December 2008, the corporation and the corporate
                                                                       president pled guilty to conspiracy charges. In April 2009,
                                                                       the corporation was sentenced to 5 years of probation, fined
                                                                       $100,000, and ordered to pay $375,000 in criminal forfeiture.
                                                                       The corporate president was sentenced to 3 years of probation,
                                                                       including 9 months of home confinement; a $10,000 criminal
                                                                       fine; and $375,000 in criminal forfeiture. Three employees
                                                                       also pled guilty and were sentenced to probation during this
                                                                       reporting period.
A caged ring where cockfights were held. OIG photo.                    California Man Convicted of Forgery
The Federal Bureau of Investigation (FBI) and the Internal             In March 2009, a San Clemente, California, man pled guilty
Revenue Service-Criminal Investigation (IRS-CI) developed              to one count of forgery and was sentenced to 18 months of
evidence of money laundering, failure to pay taxes, and corrupt        probation and 60 hours of community service, fined $593,
practices by the then-sheriff. A game bird association that            and ordered to attend 4 hours of business ethics courses by
lobbied to make cockfighting a legal sport and its president           the Superior Court of California, County of San Diego.
were prosecuted for violating Federal campaign contribution            The man, who was the chief operating officer for an export
laws by hiding the true source of contributions.                       company, submitted a fraudulent certificate of conformance
                                                                       in order to obtain a European Union (EU) health certificate,
In August 2009, the owner of the sportsman’s club was
                                                                       which enabled the company to bypass the EU certification
sentenced to 16 months in prison and forfeiture of $100,000;
                                                                       process and export whey protein product to a firm located in
its manager was sentenced to 18 months in prison and a
                                                                       Larnaca, Cyprus.
$1,000 fine; and two other individuals who supported the club
were sentenced to 6 months in prison and home confinement              Controls Needed To Ensure APHIS Pilots Do Not Pose
and probation, along with $5,750 in fines. The game bird               Security Risks
association forfeited approximately $13,000, and its president
                                                                       We found that APHIS had sufficient controls to ensure that
was fined $7,500. In October 2008, the sheriff was suspended
                                                                       its pilots were qualified and trained to fly agency missions but
from his duties after his indictment and arrest and then
                                                                       had not implemented policies and procedures necessary for
resigned in February 2009. In August 2009, the former sheriff
                                                                       providing assurance that its pilots do not pose security risks.
pled guilty to a racketeering charge, misusing inmate labor
                                                                       APHIS improperly classified its employee and contract pilots,
for personal gain, and obstruction of justice by intimidating
                                                                       assigning them to a lower risk designation than pilots in other
witnesses. His sentence is pending.
                                                                       USDA aviation programs. In addition, not all of APHIS’
Florida Company Sentenced and Ordered to Pay                           employee and contracted pilots received the background
$475,000 for Conspiracy to Ship Contaminated Food                      investigations commensurate with this classification. APHIS
                                                                       officials were not aware of specific departmental guidance
A joint investigation by OIG, USDA’s Animal and Plant Health
                                                                       recommending that the agency upgrade the risk sensitivity
Inspection Service-Investigative and Enforcement Services
                                                                       designations given to its pilots, and APHIS did not monitor
(APHIS-IES), and the Department of Homeland Security’s
                                                                       and ensure that it initiated the background investigations for




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half            3
                                                                   Goal 1




all its employee pilots. In addition, APHIS did not require             to take any particular action, even in the case of a dangerous
its contracted pilots flying missions in the United States to           high-hazard dam. State dam agencies do have such regulatory
undergo background investigations. In response to our audit,            authority, and Congress specifically required NRCS to work
APHIS has taken prompt corrective action to complete                    with them, but NRCS did not always do so and instead selected
background investigations for all of its employee pilots. In            dams for assessment as they were volunteered by their owners,
addition, APHIS began requiring background investigations for           regardless of a dam’s hazard class or its proximity to the end of
its contracted pilots after our review started, and it is requesting    its planned design life.
contract language to require the contract pilots to pass a low-
                                                                        In the 6 years of the program, NRCS has not assessed 1,345
risk-level background investigation. APHIS agreed with our
                                                                        of 1,711 high-hazard dams (79 percent) but has spent
findings and recommendations. (Audit Report No. 33099-8-
                                                                        $10.1 million to assess and rehabilitate low- or significant-
KC, APHIS Controls Over Pilot Qualification and Suitability)
                                                                        hazard dams, where failures would not likely result in loss of
Emphasis Needed on the Rehabilitation of High-                          human life. OIG maintains that this allocation of resources
Hazard Dams                                                             does not conform to Congress’ mandate, nor is it in the public’s
                                                                        best interest.
Our audit disclosed that NRCS needs to place more
emphasis on the rehabilitation of high-hazard dams. Since the           NRCS agreed to develop cooperative relationships with the
1940s, NRCS has assisted in the construction of more than               State agencies responsible for regulating dams so that the
11,000 dams, many of which may be in need of rehabilitation.            Federal-State partnership can work together to ensure the
From FY 2002 to FY 2007, Congress appropriated                          rehabilitation of dams that threaten public safety. NCRS
$159.6 million to assist dam owners in rehabilitating                   will notify Congress if any high-hazard dams in need of
“structures determined to be of high-priority need in order             rehabilitation are not rehabilitated due to limitations in the
to protect property and ensure public safety.” We found that            program. (Audit Report No. 10601-1-At, Rehabilitation of
NRCS lacks regulatory authority and cannot compel owners                Flood Control Dams)




4     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                  Goal 1




GOVERNMENTWIDE ACTIVITIES–GOAL 1                                           σσ    controls over the voluntary inspection
                                                                                 of slaughtered bison (FSIS),
Participation on Committees, Working Groups,                               σσ    temporary approval of food labeling for
and Task Forces                                                                  meat, poultry and egg products (FSIS),
σσ    An OIG Special Agent is assigned full-time to the FBI’s              σσ    assessment of inspection personnel shortages
      National Joint Terrorism Task Force (NJTTF). The                           in processing establishments (FSIS),
      agent attends NJTTF threat briefings and provides                    σσ    implementation of inspection
      a variety of products related to terrorist intelligence                    procedures for catfish (FSIS),
      to OIG and other agencies and offices within the
      Department. OIG Special Agents nationwide maintain                   σσ    methicillin resistant staphylococcus
      liaison with the FBI’s local Joint Terrorism Task Forces.                  aureus in meat (FSIS),
      OIG’s participation on the NJTTF has provided an                     σσ    risk based sampling and testing for E. Coli (FSIS),
      excellent conduit for sharing critical law enforcement               σσ    food defense verification procedures (FSIS),
      intelligence. It has also broadened the FBI’s knowledge
                                                                           σσ    effectiveness of the safeguarding intervention and trade
      and that of other law enforcement agencies with
                                                                                 compliance units controls to identify and prevent
      regard to conducting criminal investigations
                                                                                 unauthorized entry of prohibited products (APHIS),
      connected to the food and agriculture sector.
                                                                           σσ    followup on APHIS evaluation of the implementation
σσ    OIG’s Emergency Response Team (ERT) continues
                                                                                 of select agent or toxic regulations (APHIS),
      to participate on the FBI’s Joint Interagency
      Agroterrorism Working Group. The overall goal                        σσ    oversight of designated qualified persons
      of the working group is to develop protocols and                           enforcing the Horse Protection Act (APHIS),
      processes among the FBI, APHIS, and OIG that                         σσ    licensing of animal exhibitors (APHIS),
      are needed to facilitate a coordinated interagency
                                                                           σσ    controls over animal import centers (APHIS),
      response to an agroterrorism event. In addition,
      to enhance its operational experience, the ERT                       σσ    animal care inspections of breeders (APHIS) ,
      participates in numerous multiagency scenario-                       σσ    evaluation of the national animal health
      based exercises throughout the country.                                    laboratory network (APHIS),
ONGOING AND PLANNED REVIEWS FOR GOAL 1                                     σσ    USDA emergency response plan for
                                                                                 foot and mouth disease (APHIS),
Topics that will be covered in ongoing or planned reviews
                                                                           σσ    USDA national plant diagnostic network (APHIS),
under Goal 1 include:
                                                                           σσ    USDA Homeland Security Initiative in the
σσ    oversight of the National Organic Program
                                                                                 2008 Farm Bill (Office of Homeland Security
      (Agricultural Marketing Service (AMS)),
                                                                                 and Emergency Coordination (OHSEC)),
σσ    followup of the National Organic Program as
                                                                           σσ    review of Forest Service (FS) firefighting
      mandated in FY 2010 appropriations (AMS),
                                                                                 succession plans, and
σσ    implementation of country of origin labeling (AMS),
                                                                           σσ    followup on prior firefighter safety audits (FS).
σσ    National Residue Program for cattle (FSIS),
                                                                           ONGOING AND PLANNED REVIEWS FOR GOAL 1
σσ    evaluation of food emergency response                                UNDER ARRA “RECOVERY ACT” FUNDS
      network capabilities (FSIS),
                                                                           σσ    implementation of flood control dams
σσ    followup on 2007 and 2008 audit initiatives (FSIS),
                                                                                 rehabilitation, phase II (Natural Resources
σσ    evaluation of the changes to the Salmonella                                Conservation Service (NRCS)).
      Verification Testing Program (FSIS),
                                                                           The findings and recommendations from these efforts will
σσ    in-commerce surveillance activities (FSIS),
                                                                           be covered in future Semiannual Reports as the relevant
σσ    State inspection programs (FSIS),                                    audits and investigations are completed.




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half              5
                                                                  Goal 2




Integrity of Benefits
OIG Strategic Goal 2:                                                  Recovery Act requirements. We plan to continue that effort in
                                                                       FY 2010. For our investigative efforts, we have been enhancing
Reduce program vulnerabilities and strengthen                          fraud awareness among USDA employees and clients through
program integrity in the delivery of benefits to                       increasing the number of fraud awareness briefings that we
program participants.                                                  conduct and by publishing literature and distributing hotline
                                                                       posters on our investigative mission and avenues for reporting
OIG conducts audits and investigations to ensure or restore
                                                                       fraud related to Recovery Act funding.
integrity in the various benefit and entitlement programs of
USDA, including a variety of programs that provide payments            In the second half of FY 2009, we devoted 47 percent of
directly and indirectly to individuals or entities. The size           our total direct resources to Goal 2, with 92 percent of these
of these programs is daunting: the Supplemental Nutrition              resources assigned to critical/high-impact work. A total of
Assistance Program (SNAP) alone accounts for approximately             95.2 percent of our audit recommendations under Goal 2
$40 billion in benefits annually, while well over $20 billion          resulted in management decision within 1 year, and 77.8
annually is spent on USDA farm programs. Intended                      percent of our investigative cases resulted in criminal, civil,
beneficiaries of these programs include the working poor,              or administrative action. OIG issued 7 audit reports under
hurricane and other disaster victims, and schoolchildren, as well      Goal 2 during this reporting period and a total of 14 during
as farmers and producers. These programs support nutrition,            the full fiscal year. OIG’s investigations under Goal 2 yielded
farm production, and rural development.                                179 indictments, 146 convictions, and about $35.2 million
                                                                       in monetary results during this reporting period and a total of
Under the American Recovery and Reinvestment Act of 2009
                                                                       297 indictments, 298 convictions, and about $80.1 million in
(Recovery Act), enacted in February 2009, USDA has received
                                                                       monetary results during the full fiscal year.
$28 billion in funding in a number of areas, including farm
loans, watershed programs, supplemental nutrition assistance,
wildland fire management, and several rural development
                                                                           Management Challenges Addressed UNDER GOAL 2
programs (such as rural housing, rural business, water and
waste disposal, and broadband). The Recovery Act also                      σσ   Interagency Communications, Coordination,
provided OIG with $22.5 million (to remain available until                      and Program Integration Need Improvement
September 30, 2013) for “oversight and audit of programs,                       (also under Goals 1, 3, and 4)
grants, and activities funded by this Act and administered                 σσ   Implementation of Strong, Integrated, Internal
by the Department of Agriculture.” OIG began working                            Control Systems Still Needed (also under Goal 3)
immediately with USDA and the IG community, as well as the                 σσ   Implementation of the Recovery
Government Accountability Office (GAO) and the Recovery                         Act (also under Goal 4)
Accountability and Transparency Board, to carry out oversight
responsibilities. Our Recovery Act oversight plan includes
proactive, short-term, and long-term audit and investigative
work, and can be found on our Web site at http://www.usda.             EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
gov/oig/recovery/OIGSTIMULUSPLAN.pdf. For our FY 09                    GOAL 2
audit oversight, we initiated 31 projects, completed 2, and
issued 16 fast reports (quick turnaround reports intended to
                                                                       Misapplication of Adjusted Gross Income (AGI)
alert management to immediate Recovery Act issues). We have            Provisions Caused Improper Payments
29 Recovery Act projects planned for FY 2010. The completed            Our audit found that misapplication of AGI provisions and an
reports and fast reports reviewed development of USDA                  automated system design flaw caused improper payments in a
agency program guidance and requirements, internal controls,           conservation program. The AGI provisions of the 2002 Farm
eligibility criteria, and USDA compliance activities related to        Bill limited the eligibility of participants for USDA commodity




6    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                  Goal 2




and conservation program benefits. NRCS applies Farm Service           already defaulted, resulting in avoidable loss claim payouts
Agency (FSA) AGI eligibility decisions to exclude ineligible           of more than $1.75 million. Our audit also found that 4 of
program participants. We found that NRCS, in implementing              6 lenders in our sample had set interest rates too high for 11
the AGI provisions in the Environmental Quality Incentives             of the 123 loans we reviewed, primarily due to the agency’s
Program (EQIP) in FY 2005, made improper payments to                   lack of oversight. Consequently, some of the 246,000 low- to
entities or joint operations with ineligible members, because          moderate-income borrowers with loans guaranteed by the
the agency did not exclude ineligible program participants.            agency may be paying unnecessary interest to lenders.
Specifically, NRCS was not reducing benefits by an amount              The 11 borrowers in our sample could be paying more
commensurate with the ownership interest of the members                than $77,000 in excessive interest over the course of their
who exceeded the AGI limit. Instead, believing that it was             30-year loans.
following FSA’s lead, NRCS reduced the payment cap, which
                                                                       RHS agreed to develop specific minimum requirements for
sometimes had no effect on the actual payment. However,
                                                                       lenders’ QC processes, monitor lenders’ compliance with the
FSA was reducing program payments, not payment caps. Our
                                                                       QC requirements, and establish procedures for field staff to
work identified more than $1 million in improper payments to
                                                                       verify that lenders set interest rates in accordance with agency
participants in FY 2005 due to this misapplication.
                                                                       guidelines before issuing loan guarantees. (Audit Report No.
During our audit fieldwork, NRCS issued policy and guidance            04601-17-Ch, Controls Over Lender Activities in the SFH
on AGI and commensurate payment reduction; implemented                 Guaranteed Loan Program)
automated internal controls within its program contracting
                                                                       Management Company Failed To Comply With
software to validate future participants’ AGI eligibility and
                                                                       Program Requirements
reduce payments commensurately; and agreed to seek cost
recovery for participants unable or unwilling to substantiate          In response to a request by the Texas State Rural Development
AGI eligibility. Because many of the improper payments                 (RD) Office, our audit found that the management company
resulted from an administrative error, collection by NRCS is           operating in Oklahoma and Texas had overcharged its housing
doubtful. With the agency on schedule to implement all these           projects—apartment complexes that are subsidized under the
changes by October 2009, we made no recommendations.                   Rural Rental Housing (RRH) program—a total of $44,158,
(Audit Report No. 50099-52-Te, Review of AGI Limitation)               including $4,692 in late fees, $4,200 for an unauthorized truck
                                                                       lease, and $35,266 in excess costs for appliances that were
Rural Housing Service (RHS) Needs To Strengthen                        purchased at prices from 13 to 57 percent above wholesale from
Controls Over Lender Activities in the Single-Family                   a company owned by one of its employees. The management
Housing (SFH) Guaranteed Loan Program                                  company also was not complying with Federal regulations
Our audit found that mortgage lenders participating in RHS’            regarding the number of tenants who may live in apartments
SFH Guaranteed Loan Program could submit false borrower                of various sizes. In addition, the management company was
eligibility documents with little risk of detection by agency          not adequately maintaining the projects, which resulted in
staff. This could occur because the agency does not verify             numerous health and safety violations at certain projects.
information with an independent source—for example,
                                                                       The Oklahoma and Texas State RD offices agreed to take
verifying income with employers—but instead relies on the
                                                                       appropriate corrective action to remedy identified problems,
lenders’ internal quality control (QC) reviews. However,
                                                                       such as withdrawing RD’s approval for the management
lenders’ QC reviews were deficient because their plans were
                                                                       company to manage the projects. They also agreed to reimburse
generally either inadequate or not fully adhered to by lenders,
                                                                       the excess charges, make reserve accounts current, and take
which could lead to loans made to ineligible borrowers.
                                                                       other actions to more closely monitor vacancy and occupancy
For example, an OIG investigation that RHS requested in
                                                                       rates and ensure projects are adequately maintained to meet
one State uncovered that the agency’s portfolio included 46
                                                                       health and safety requirements. (Audit Report No. 04099-211-
guaranteed loans made to ineligible borrowers, 33 which have
                                                                       Te, Request Audit of Oklahoma RRH Management Company)




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half            7
                                                                    Goal 2




Borrower Failed To Comply With Federal Regulations                       than $1 million in fraudulent crop insurance payments from
by Not Disclosing an Identity-of-Interest                                July 2001 to June 2004. The corporation falsely claimed
Subcontractor                                                            crop losses when its pepper crops had actually been harvested
                                                                         and sold for cash. In October 2008, in Federal court for the
In response to another request by the Texas State RD Office,
                                                                         Middle District of Florida, the corporation was charged with
our audit found that a single borrower with three multi-
                                                                         wire fraud and the producer was charged with filing a false tax
family housing projects in west Texas had failed to properly
                                                                         return for the 2004 tax year. In March 2009, the corporation
disclose an identity-of-interest relationship with one of the
                                                                         was sentenced in Federal court to 60 months of probation and
subcontractors. The borrower believed that, because an identity
                                                                         was ordered to pay restitution of $1.1 million. The producer
of interest in the subcontractor’s parent company had been
                                                                         was sentenced to 3 months in prison and 3 months of home
disclosed, everything would be fully disclosed at the time of
                                                                         confinement, followed by 1 year of probation. She also paid
the cost certification. As a result, at least $83,000 was paid to
                                                                         $1.564 million in taxes, fines, and penalties.
the subcontractor with the undisclosed identity of interest.
RD agreed to obtain a certification of the actual cost of                Florida Farm Corporation Sentenced and Ordered to
construction from an independent certified public accountant             Pay $402,000 in Restitution and Forfeit $402,000 in
that has not acted as the borrower’s accountant and then make            Crop Insurance Scheme
a determination whether further action is warranted on the               Another joint OIG investigation determined that a different
borrower, such as suspension and debarment. (Audit Report                Florida farm corporation had received more than $402,000 in
No. 04099-212-Te, Multi-Family Housing Loans in Texas)                   fraudulent crop insurance payments from July 2001 through
Controls Over Tobacco Transition Payment Program                         June 2003. The corporation falsely claimed crop losses when
(TTPP) Payments to Producers Are Adequate To                             it in fact had harvested and sold its strawberry and pepper
Ensure Compliance With Program Regulations                               crops for cash. After pleading guilty to wire fraud, in April
                                                                         2009 the corporation was sentenced by a Federal court in the
TTPP provides annual transitional payments totaling
                                                                         Middle District of Florida to 5 years of probation and was
approximately $3.3 billion over 10 years to eligible tobacco
                                                                         ordered to pay $402,000 in restitution and forfeit $402,000.
producers. We reviewed a sample of 200 approved producer
                                                                         Two producers were also convicted and sentenced to 3 years
contracts to determine if FSA’s controls over TTPP payments
                                                                         of probation for filing a false tax return. The investigation was
to producers were adequate. We obtained and analyzed contract
                                                                         conducted jointly with IRS-CI and RMA-SIB.
supporting documentation relating to producer eligibility,
farm eligibility, TTPP quota and payment calculations, FSA               Joint Investigation Results in Illinois Farmer
county office second-party reviews, and FSA district director            Sentenced for False Statements and
spot-check reviews. We concluded that the internal controls              Bankruptcy Fraud
implemented by FSA are adequate to ensure that payments are              A joint investigation involving OIG, the FBI, and the U.S.
issued only to eligible tobacco producers and that producer              Postal Inspection Service found that a Carlyle, Illinois, farmer
payments are calculated in accordance with the regulations.              made false statements to obtain 2007 farm program payments
As such, we made no recommendations for corrective action                on land he no longer owned and conspired with his wife to
in this report. (Audit Report No. 03601-16-At, FSA Controls              commit bankruptcy fraud of at least $2.5 million. In November
Over TTPP Payments to Producers)                                         2008, the farmer and his wife each pled guilty to committing
Florida Farm Corporation and Producer Sentenced in                       perjury, making false statements, and committing bankruptcy
Crop Insurance Scheme                                                    fraud. He was sentenced in April 2009 by a Federal court
                                                                         in Illinois to serve 10 years in Federal prison followed by 36
A joint investigation by OIG, USDA’s Risk Management
                                                                         months of supervised release. His wife was sentenced to serve
Agency-Special Investigations Branch (RMA-SIB), and
                                                                         24 months of probation.
IRS-CI disclosed that a Florida corporation received more




8    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                   Goal 2




Former Montana State Committee Chairman Agrees                          yet one paid over $150,000. We concluded that NRCS should
to a $275,000 Settlement for Defrauding FSA                             establish standards for the types and amounts of costs NGOs
                                                                        can pass on to landowners.
A former Montana FSA State Committee Chairman agreed to
pay $275,000 and to step down as State Committee Chairman               OIG has referred for prosecution the one NGO that used
in order to avoid the filing of a lawsuit under the False Claims        landowner funds to pay its share of the purchase price for its
Act as a result of illegal payments he received for crop subsidies.     four easements. NRCS generally agreed with our findings and
From 1986 to 2006, the State Committee Chairman conspired               is taking steps to improve its controls over NGOs and FRPP
with an FSA employee to create a fictitious farming partnership         easements. (Audit Report No. 10099-6-SF, NRCS’ FRPP–
and submitted false documents to FSA in order to avoid                  Review of NGOs)
payment limitation provisions. As a result, he received more
                                                                        Operation Talon Update
than $773,000 in farm program funds to which he otherwise
would not have been entitled.                                           OIG began Operation Talon in 1997 to locate and apprehend
                                                                        fugitives, many of them violent offenders, who are current or
Iowa Man Sentenced Following Guilty Plea for                            former food stamp (now SNAP) recipients. As of September
Conversion of Mortgaged Property                                        30, 2009, Operation Talon had resulted in 14,645 arrests
As reported in the SARC for the first half of FY 2009, an               of fugitive felons during joint OIG-State and local law
Elkader, Iowa, producer admitted that he sold approximately             enforcement operations. During this reporting period, OIG
19,315 bushels of Commodity Credit Corporation (CCC)-                   agents conducted Talon operations in 5 States, making a total
mortgaged corn and failed to notify FSA or to provide any of            of 264 arrests. OIG combined forces with Federal, State,
the sales proceeds to FSA. The producer split the sales proceeds        and local law enforcement agencies to arrest 77 fugitives in
with his son. In November 2008, the producer was indicted               Missouri, 50 in Tennessee, 110 in Massachusetts, 23 in Oregon,
in Federal District Court for the Northern District of Iowa             and 4 in Indiana for offenses including arson, assault, burglary,
for conversion of the mortgaged grain and subsequently pled             motor vehicle theft, assorted drug charges, robbery, fraud,
guilty. In June 2009, he was sentenced to serve 5 months in             forgery, driving under the influence, extortion and blackmail,
Federal prison, followed by 3 years of probation, and was               sex offenses, offenses against family and children, larceny, stolen
ordered to pay $38,517 in restitution to FSA.                           property, weapons violations, and other offenses.

Farm and Ranch Lands Protection Program (FRPP)                          SNAP Offenses and SNAP-Related Offenses Result in
Review of Non-Governmental Organizations (NGOs)                         Significant Prison Sentences and Monetary Results
After our June 2005 audit determined that an Alabama                    σσ    An OIG investigation conducted with IRS-CI revealed
NGO was abusing NRCS’ FRPP, we assessed whether the                           that an unauthorized person who posed as the owner
                                                                              of a small grocery store in Chicago was involved in a
problem was more widespread and found that NRCS has
                                                                              SNAP benefit trafficking scheme from August 1, 2000,
not implemented an effective management control system to
                                                                              through November 1, 2000. The fraud of approximately
monitor NGOs’ compliance with program rules and ensure
                                                                              $1.1 million involved the illegal exchange of SNAP benefits
that landowners are treated equitably. In general, NRCS                       for discounted amounts of cash. The unauthorized person
assumed that participating NGOs would follow the rules,                       pled guilty to wire fraud in connection with the SNAP
instead of taking steps to ensure that they did. We found two                 benefit trafficking scheme in December 2007. During
problems. First, an NGO used landowner funds to pay its share                 the investigation, the unauthorized person admitted
of the purchase price for its four FRPP easements, in violation               that he used the profits he made from SNAP benefit
of program regulations. Second, NGOs varied widely in both                    trafficking to fund an international pseudoephedrine
the types and amounts of costs landowners were asked to pay.                  trafficking and distribution scheme, for which he was
While NGOs may solicit donations from landowners for costs                    indicted in April 2003 and pled guilty in August 2007.
associated with procuring and maintaining easements (such as                  In April 2009, the unauthorized person was sentenced
                                                                              to 31 months of incarceration followed by 3 years of
stewardship or appraisal costs), some landowners paid nothing,
                                                                              probation and was ordered to pay over $1.1 million in




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half          9
                                                                   Goal 2




     restitution. He was further ordered to cooperate with                   August 2008, the individual responsible was charged in
     ICE in his deportation at the end of his sentence, to not               the Southern District of New York and charged with wire
     re-enter the United States without the consent of the                   fraud, SNAP fraud, identity theft, access device fraud and
     Secretary of Homeland Security, and to participate in                   conversion of Government funds. In September 2009, she
     mental health treatment for his gambling addiction.                     was sentenced to 37 months of imprisonment to be followed
σσ   In another Chicago investigation, our work determined                   by 3 years supervised release, and $186,823 in restitution.
     that two Chicago-area grocers conspired to open                         This investigation was conducted jointly with the U.S.
     convenience stores with the implicit purpose of                         Secret Service and the New York City Human Resource
     illegally purchasing SNAP benefits. For 10 months,                      Administration’s Bureau of Fraud and Investigation.
     the individuals purchased in excess of $2.1 million in             σσ   A former New Mexico Human Services Department
     benefits from recipients while reporting only $834,000                  (NMHSD) financial assistance analyst and her roommate
     in food sales. One of the co-conspirators pled guilty                   were sentenced in July 2009 in the District of New Mexico
     to felony charges and was sentenced in United States                    for their roles in a scheme to fraudulently obtain over
     District Court, Northern District of Illinois, to 21                    $35,000 in SNAP and Temporary Assistance for Needy
     months of incarceration, 2 years of supervised release,                 Families benefits. From September 2006 to October 2007,
     and $2.1 million in restitution. The other store owner                  the employee used her position to create four fictitious
     pled guilty to felony charges and sentencing is pending.                income support accounts by using the names, dates of birth,
σσ   An OIG investigation conducted with IRS-CI disclosed that               Social Security numbers, and other personal identifying
     a married couple who owned a store in Detroit committed                 information of her grandmother, mother, aunt, and
     nearly $1.3 million in SNAP fraud over a 2-year period                  roommate. The former NMHSD employee was sentenced
     by illegally exchanging SNAP benefits for cash, alcohol,                to serve 24 months of imprisonment and 12 months of
     and other ineligible items. In May 2009, the husband and                supervised release and was ordered to pay $34,698 in
     wife were sentenced to 36 months of imprisonment and                    restitution, of which $24,679 was to be paid jointly and
     30 months of imprisonment, respectively; $1.2 million                   severally with her roommate. Her roommate was sentenced
     in restitution; and criminal forfeiture of $90,000.                     to serve 60 months of probation and was ordered to pay
                                                                             $24,679 in restitution jointly and severally with the analyst.
σσ   A joint investigation with the U.S. Secret Service, Florida
                                                                             This investigation was conducted jointly with the NMHSD
     Department of Law Enforcement, and the Pinellas
                                                                             OIG and the Social Security Administration OIG.
     County Sheriff’s Office resulted in the conviction of a
     store manager for electronic benefits transfer (EBT) fraud         σσ   A caseworker with the Missouri Department of Social
     and wire fraud. Charges were filed in October 2008 in                   Services pled guilty and was sentenced for accepting
     the Middle District of Florida. In March 2009, the store                bribes in exchange for authorizing ineligible persons to
     manager pled guilty to EBT fraud and wire fraud. In July                receive SNAP and other welfare benefits. The caseworker
     2009, he was sentenced in Federal court to 21 months in                 promised applicants who otherwise would not be eligible
     prison and 3 years of probation. Restitution was ordered                to receive benefits that their applications would be
     at $390,000. A forfeiture money judgment was ordered                    approved, but only after the applicants would pay him a
     for that same amount. In addition, the State Attorney’s                 certain amount of money, usually $150. The caseworker
     Office agreed to prosecute EBT clients who had trafficked               was sentenced in June 2009 to serve 12 months and 1 day
     at the store in amounts over $500. Approximately 74                     in Federal prison, followed by 24 months of supervised
     EBT clients have been charged with fraud so far.                        release, and was ordered to pay restitution of $2,058.

σσ   Beginning in 2005, approximately 340 stores were                   σσ   While employed by the State of Oregon, Multnomah
     victimized in a scheme that used New York-issued SNAP                   County Aging and Disability Services, a woman stole SNAP
     EBT cards to process fraudulent SNAP credits and                        benefits intended for aging and disabled clients to support
     debits, including 29 stores outside the State of New York.              her drug habit. In July 2009, in Federal court in the District
     Approximately 97 EBT card numbers were used to process                  of Oregon, a judge sentenced the woman to 5 years of
     the fraudulent credits and debits. Approximately 103 stores             probation after she pled guilty to a felony charge of SNAP
     in the New York City area were involved in removing                     benefit fraud. She was ordered to pay restitution in the
     fraudulently obtained credits from the EBT cards. In                    amount of $7,039 to USDA’s Food and Nutrition Service.




10    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                  Goal 2




Detroit Welfare Defrauder and Boyfriend Sentenced                       to charges including felony theft and felony corrupt business
for the Murder of Infant Son                                            influence. Sentences ranged from 180 days to 48 months of
                                                                        imprisonment (suspended), 176 to 730 days of probation, and
An OIG investigation conducted jointly with the Detroit
                                                                        restitution of $45,400.
Police Department and the Michigan Department of Human
Services determined that a Detroit couple had murdered their            Two Convicted for Defrauding School Lunch
infant son, attempted to cremate his remains on a charcoal              Feeding Program
grill, and falsified various welfare applications to receive SNAP       From approximately May 1997 to January 2001, the
benefits on behalf of their deceased child. After the attempted         administrators of a private school in Brooklyn, New York,
cremation, the couple hid the charred remains in the ceiling            defrauded the USDA’s National School Breakfast and Lunch
of a relative’s home and continued to receive SNAP and other            Program of approximately $381,914 by submitting fraudulent
public benefits on behalf of the infant for 18 months after his         claims for reimbursement of meals that were never served.
death. In April 2009, the infant’s mother was sentenced in local        The administrators, who are rabbis and also brothers, claimed
court to 10-15 years of imprisonment after pleading guilty              to operate four feeding sites, two of which were found to be
to charges of manslaughter and welfare fraud. The father was            non-operational during the time period when claims for meal
sentenced to 25-50 years of imprisonment after pleading guilty          reimbursement were submitted. In addition, our investigation
to charges of homicide and child abuse.                                 determined that the claims for reimbursement contained the
New Hampshire Woman Convicted for Using False                           names of nonexistent children, as well as forged signatures of
Identities In Order To Receive Multiple Social                          parents on the program applications. An additional element
Service Benefits                                                        of the scheme was that when meals were served at the school,
                                                                        food donated by a local restaurant was served rather than the
OIG participated in an investigation of identity fraud as part of
                                                                        bulk food provided by USDA, which was diverted elsewhere. In
an ongoing joint effort with the New Hampshire Identity Fraud
                                                                        October 2005, the rabbis were charged in the Eastern District
Task Force. To date, multiple individuals have been identified
                                                                        of New York with conspiracy to defraud the School Breakfast
and convicted of using false identities in order to receive various
                                                                        and Lunch Program, program fraud, and making false claims.
Federal and State social service benefits to which they were not
                                                                        They subsequently pled guilty and, in June 2009, both were
entitled, including Social Security benefits, welfare benefits,
                                                                        sentenced to 2 months in prison, to be followed by 3 years
housing benefits, and SNAP benefits. On June 29, 2009, the
                                                                        of supervised release, and were ordered to pay $75,000 in
latest defendant pled guilty to multiple counts of making false
                                                                        restitution.
statements and was sentenced to 180 days of electronically
monitored home confinement, $64,084 in restitution, a                   Guilty Plea for Defrauding Feeding Program
$200 fine, and 5 years of probation. This investigation was             of $520,000
conducted jointly with the SSA OIG, the Housing and Urban               From December 2004 through July 2006, a community center
Development OIG, the United States Attorney’s Office, and the           in Brooklyn, New York, received approximately $520,000 in
New Hampshire Department of Health and Human Services.                  Child and Adult Care Food Program (CACFP) funds for meals
Four Sentenced for Felonies Involving Theft                             and snacks reportedly served in its after-school programs and
of Infant Formula                                                       day care center. OIG’s joint investigation with the FBI and
                                                                        the New York Department of Health revealed that none of the
An OIG investigation conducted with the Indianapolis
                                                                        community center’s programs had access to kitchen facilities,
Metropolitan Police Department revealed that four subjects
                                                                        and no meals were served to children in the community center’s
conspired to steal more than $100,000 worth of infant
                                                                        care. On December 8, 2008, the community center’s former
formula. As part of the investigation, several controlled
                                                                        director was charged in the Eastern District of New York with
deliveries of infant formula were undertaken in December
                                                                        CACFP fraud and submitting false claims. He subsequently
2008 and January 2009 with the subjects. On January 24,
                                                                        pled guilty in July 2009, and is in prison awaiting sentencing as
2009, search and arrest warrants were executed as a result of the
                                                                        a result of violations he committed during pretrial supervision.
investigation. On August 5, 2009, all four subjects pled guilty




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half        11
                                                                  Goal 2




RECOVERY ACT REVIEWS                                                   RBS responded that it is providing sufficient guidance to
                                                                       ensure effective internal controls on leasehold interests
Existing Risk to RD’s Recovery Act Programs                            taken as collateral and has decided not to implement this
One of our initial Recovery Act projects was to review                 recommendation. In addition, the agency has adopted a policy
unresolved audit recommendations that could affect internal            to make all businesses ineligible for Recovery Act funding that
controls over Recovery Act activities for each USDA agency.            derive any income from gambling but does not concur in the
For RD, we identified 17 recommendations from prior audits             certification requirement. Rather, all loan commitments will be
concerning issues that could pose a significant risk of inefficient    conditioned so that Recovery Act funds are disbursed only for
or improper use involving approximately $10 billion of                 purposes authorized by the statute. We have not yet tested these
Recovery Act funds. We identified recommendations where RD             risks and plan to revisit these areas because of the potential
had not implemented the agreed-upon corrective actions within          that RD could sustain considerable losses and create a negative
the mandatory 1-year timeframe and where these issues were             public perception of the proper use of Recovery Act funds.
still unresolved. We then determined which of these issues, if         Recovery Act Fast Report (Audit Report No. 34099-12-Te (1),
left unresolved or not mitigated, would introduce a significant        Recovery Act–B&I Guaranteed Loan Program)
risk of inefficient or improper use of Recovery Act funding.
                                                                       RHS Should Strengthen Internal Controls Over
The RD programs at risk were the Business and Industry (B&I)
                                                                       Recovery Act Funds for the SFH Guaranteed
Guaranteed Loan Program (11 unresolved recommendations),
                                                                       Loan Program
the Broadband Grant and Loan Program (5 unresolved
recommendations), and the SFH Direct Loan Program                      Our review of Recovery Act funds that guarantee almost
(1 unresolved recommendation). The risks associated with each          $10.5 billion in single-family housing loans in rural areas
of these recommendations are aligned with the accountability           through RHS’ SFH Guaranteed Loan Program identified a
objectives of the Recovery Act. We are working with RD to              number of concerns that we reported to the agency in five fast
have these unresolved recommendations implemented as soon              reports as detailed below. We have summarized our concerns
as possible.                                                           in a final audit report. RHS is in agreement with the report
                                                                       and has taken corrective actions to address the concerns we
Weaknesses in the B&I Guaranteed Loan Program                          disclosed.
Could Put Recovery Act Funds at Risk
                                                                       σσ    We found that lenders are able to enter inaccurate borrower
We found two weaknesses in RD’s B&I Guaranteed Loan                          information into the Guaranteed Underwriting System
Program that could put $1.7 billion of Recovery Act funds at                 (GUS), an automated underwriting system used by RHS,
risk because of questionable eligibility criteria. First, the Rural          with minimal risk of detection by agency officials. Lenders
Business-Cooperative Service (RBS) continues to allow the use                are not required to submit documentation that supports the
of leasehold properties to be used as loan collateral even though            eligibility of borrowers for applications accepted by GUS.
such collateral is generally valueless to RBS. We recommended                In response to our report, the agency suspended use of GUS
that leasehold properties be prohibited as collateral for Recovery           to incorporate additional quality control procedures. These
Act loans. Second, the Recovery Act prohibits borrowers from                 procedures include a pre-closing loan review of 5 percent of
                                                                             all GUS submissions and an increase in lender compliance
having any gross income derived from gambling activities,
                                                                             testing that focuses on GUS loan origination quality.
whereas current B&I regulations allow income from such
activities to be no more than 10 percent. RBS does not have            σσ    We noted that the agency policy regarding waiver of
sufficient controls to ensure that borrowers who receive                     debt ratio requirements was unclear, and was not being
                                                                             administered by field staff as expected by national
funding through the Recovery Act do not derive any income
                                                                             officials. We identified several instances where agency
from gambling activities. We recommended that RBS require
                                                                             staff approved lender-requested waivers based solely on
every lender and borrower that receives Recovery Act funds to                the lender’s written request. Agency staff did not obtain
certify that none of the borrower’s income is derived directly or            evidence of the compensating factor—for example, in
indirectly from gambling operations.                                         instances where the compensating factor was a large savings




12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                     Goal 2




     account, agency staff did not obtain bank statements.                      appraiser review a random sample of appraisals for SFH
     Our concern is that lenders could create or exaggerate                     guaranteed loan obligations on a biweekly basis.
     compensating factors to justify approving a loan guarantee
                                                                          Recovery Act Fast Reports (Audit Report No. 04703-1-Ch
     for a substandard borrower. In response to our report, the
                                                                          (1-5), Controls Over Eligibility Determinations for SFH
     agency agreed to clarify its requirements that lenders must
                                                                          Guaranteed Loan Stimulus Funds (Phase I))
     submit supporting documentation for all waivers on loans
     submitted to field staff. The agency also agreed to require          RD Needs To Effectively Perform Compliance
     manually underwritten loans with repayment ability ratios            Activities in the Rural Business Enterprise Grant
     above certain thresholds to be approved by a supervisor.             (RBEG) Program
σσ   We were concerned that lenders may not adequately
                                                                          The Recovery Act includes $20 million for the Rural Business-
     scrutinize loans originated by brokers, which could result
                                                                          Cooperative Service (RBS) to provide RBEG grants for rural
     in the approval of substandard loans. The agency relies
     on lenders to review information on applications during              projects. Before the issuance of any Recovery Act RBEG grants,
     the underwriting process. Our concern is based on two                we reviewed the internal controls over regularly funded RBEG
     factors: (1) the compensation method for brokers and                 grants. Our review was based on audit work at three RD State
     (2) the fact that originating lenders typically sell loans to        Offices where RD internal reviews had reported previous
     other lenders after loan closing. Brokers are compensated            compliance problems; we reviewed the 2008 RBEG projects
     for each originated loan. Thus, there is an incentive to             within those States to verify whether corrective actions had
     submit as many loan applications as possible to increase             been taken. During our review, we found a few concerns that
     the brokers’ income. Since originating lenders typically             we reported to the agency in two fast reports as detailed below.
     sell loans to other lenders after closing, some lenders may
     not dedicate sufficient resources to scrutinize these loans          σσ    We found that some recipients of regularly funded RBEG
     before submitting them to the agency. In response to our                   grants were not submitting quarterly performance reports
     report, the agency agreed to increase lender compliance                    while others submitted inadequate ones, resulting in RD’s
     testing with a focus on loans originated by brokers.                       inability to detect (a) whether grant funds were expended
                                                                                for project activities that were in accordance with the
σσ   We found that agency field staff routinely performed all
                                                                                agency-approved Scope of Work and (b) whether grant
     functions of the guarantee loan process without supervisory
                                                                                projects were completed promptly. We recommended that
     review. In addition, we observed and field staff explained
                                                                                RD provide additional training to the States to reinforce
     that they were processing up to three times the number of
                                                                                the quarterly reporting requirements and develop a formal
     applications as usual. Under these circumstances, errors
                                                                                process for monitoring and ensuring that each RD State and
     made by the lender may not be identified due to the
                                                                                area office consistently obtains the quarterly performance
     significant loan volume associated with the distribution
                                                                                reports from the RBEG grantees. RD generally agreed
     of Recovery Act funds. We recommended that the
                                                                                to implement our recommended corrective actions.
     agency implement a second-party review of applications
     and segregation of duties in offices where it was feasible           σσ    We found that RD State offices had not ensured that
     based on staffing levels. In response to our report, the                   grant recipients submitted the required documentation
     agency agreed to incorporate a second-party review.                        to support grant expenditures. We found deficiencies
                                                                                in the supporting documentation for 7 of 22 grants we
σσ   We found that there is an increased risk that the agency
                                                                                reviewed at one State office. Reimbursement requests were
     is providing guarantees on loans where borrowers owe
                                                                                missing supporting documentation, and reimbursement
     more than their homes are worth because the appraisals
                                                                                requests were for purposes not included in the agency-
     do not accurately reflect the current market value of the
                                                                                approved Scope of Work and/or for ineligible purposes.
     property secured by RHS loan guarantees. In response
                                                                                RD generally agreed that its national office would
     to our report, the agency will immediately adopt the
                                                                                determine whether all RD State offices were obtaining
     newly released industry guidance, including the “Market
                                                                                adequate documentation from RBEG grant recipients.
     Conditions Addendum to the Appraisal Report,” which
     provides a format to report on market conditions. The                Recovery Act Fast Reports (Audit Report No. 34703-1-KC
     agency also agreed to have an agency-licensed/certified              (1-2), Controls Over Recovery Act RBEGs)




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half          13
                                                                     Goal 2




RD Could Establish Stronger Controls for Section 502                            interviewed foresee difficulties in processing the direct
Direct Loans                                                                    loans funded by the Recovery Act because of the shortage
                                                                                of qualified, experienced staff. They are concerned about
USDA received approximately $1 billion in Recovery Act                          the potential for backlogs of loans waiting to be processed,
funding to directly finance housing loans for low-income and                    the loss of customers due to untimely delivery of services,
very low-income individuals living in rural areas. As part of our               employee burnout from working too many hours, and
ongoing oversight efforts, we identified some concerns that we                  the overall quality of RD’s loanmaking decisions. All
reported to the agency in three fast reports as detailed below.                 of these problems could easily lead to RD’s inadvertent
                                                                                approval of poor, risky, or even ineligible loans, which
σσ    We identified additional performance measures that
                                                                                could soon default, resulting in significant costs to the
      RD could be tracking and reporting to better define its
                                                                                Government. RD agreed to require State offices to develop
      accomplishments in meeting the goals of the Recovery
                                                                                and implement an effective plan to use the available
      Act. We noted that RD had established only one
                                                                                administrative funding and consider additional ways to
      measure of performance for Recovery Act-related Section
                                                                                optimize the use of current staff resources. The agency
      502 Direct Loan activity, which was to “increase the
                                                                                will (1) direct State offices to develop internal spending
      number of homeowners.” National office officials told
                                                                                plans regarding the initial allocation of Recovery Act
      us this measure has historically been used because it
                                                                                administrative funds and (2) provide additional guidance
      is easily tracked and quantified. From our interviews
                                                                                or direction to RD offices on strategically deploying
      with RD State officials, we identified several additional
                                                                                existing and temporary employees to maximize effective
      performance measures that potentially might better reflect
                                                                                program delivery, procurement, hiring, and information
      the agency’s success in meeting the goals of the Recovery
                                                                                technology (IT) for Recovery Act-funded activities.
      Act—specifically, “to promote economic recovery and
      to assist those most impacted by the recession.” RD                 Recovery Act Fast Reports (Audit Report No. 04703-1-KC
      agreed to establish at least two additional performance             (1-3), SFH Direct Loans Recovery Act Controls)
      measures to better reflect the agency’s success in meeting
                                                                          Rural Utilities Service’s (RUS) Allocation Method
      the purposes and principles of the Recovery Act.
                                                                          for Water and Waste Disposal Loans and Grants
σσ    We found that although the Recovery Act almost doubled
                                                                          May Not Target Projects in Communities Most
      the funding for the SFH Direct Loan Program, the RD
      national office has not specified—nor have the State offices
                                                                          Affected by the Recession
      adopted—any additional compliance activities to review              We found that RUS should apply additional criteria in
      the quality of loan underwriting for Recovery Act loans.            allocating the approximately $3.8 billion in funds included
      In addition, the States we visited were not effectively             in the Recovery Act for loans and grants for water and waste
      performing loan underwriting reviews of delinquent                  disposal systems in rural areas. Loan and grant funds are
      loans. These reviews could identify whether the basis               allocated to each RD State office based on a formula that
      for loanmaking decisions is adequately supported and
                                                                          uses the demographics of rural population, rural population
      documented. RD agreed to: (1) establish a formal process
                                                                          below the poverty line, and nonmetropolitan unemployment.
      for monitoring and ensuring that each State performs
                                                                          Although we agree with the use of these specific demographics,
      underwriting reviews of delinquent Section 502 direct loans
      at least quarterly and (2) immediately assess the quality           we believe that additional criteria could be used (e.g., a
      of loan underwriting for Recovery Act loans to ensure the           threshold of priority points). RD did not agree with our
      proper and prudent use of these funds. RD will require State        recommendations, stating that their current allocation method
      offices to submit reports on the results of loan underwriting       is required by statute and that it is fair.
      reviews of delinquent loans to the national office.
                                                                          We have not yet performed an analysis to determine the extent
σσ    We determined that State offices are not fully using                to which RD may be funding water and waste disposal projects
      administrative cost funds provided by the Recovery Act to           that are less in need of its assistance to the detriment of projects
      mitigate staff shortages in RD’s RHS Direct Loan program.
                                                                          that are more in need of its assistance. As a result, we have no
      We also found areas where RD could better optimize the
                                                                          conclusions on the overall impact to the program and plan to
      use of current field office staff. State office officials we




14     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                     Goal 2




revisit it in FY 2010. Our concern is that RD could modify its           Recovery Act Fast Reports (Audit Reports Numbers 03703-
project selection process to ensure that Recovery Act funds are          1-Ch (1-2), Controls Over Aquaculture Grant Recovery Act
better targeted to communities most affected by the recession            Funds, Phase 1)
and those projects with the greatest merit. Recovery Act Fast
                                                                         Direct Farm Operating Loan Compliance Procedures
Report (Audit Report No. 09601-1-At (1), Controls Over the
                                                                         Could Be Improved to More Timely Detect Improper
Water and Waste Disposal System Loan and Grant Program)
                                                                         Use of Recovery Act Funds or Ineligible Borrowers
Administration of Aquaculture Grant Recovery Funds                       The Recovery Act provides more than $173 million for direct
Needed Improvement (Phase 1)                                             farm operating loans to farmers and ranchers for a variety of
The Recovery Act authorized $50 million in grants to States              farming expenses. As of May 31, 2009, for FY 2009, FSA
to assist eligible aquaculture farmers who suffered losses               had obligated 14,086 direct farm operating loans totaling
associated with high feed costs during 2008. We provided                 about $845 million, including the Recovery Act funds (about
FSA two fast reports suggesting modifications to the working             20 percent of the total obligations). Since the Recovery Act
draft Memorandum of Agreement (MOA) between FSA and                      monies were appropriated for the existing direct farm operating
participating States regarding program eligibility, payment              loan program, FSA planned to process, fund, and service the
limitation, record retention, program oversight, and payment-            Recovery Act loans in accordance with existing regulations and
rate calculations, and allowing States the option of dispensing          procedures. We found that FSA’s compliance review process
the grant funds to aquaculture producers in the form of                  could be improved to more timely detect improper use of
vouchers or credits for future feed purchases rather than                Recovery Act funds or ineligible borrowers. Also, given the
making direct payments to the farmers. FSA acted immediately             relatively small number of direct farm operating loans in the
to address all our recommendations except one relating to the            total population from which compliance review samples are
payment calculation. We were concerned that the payment                  drawn, there is no assurance that FSA will sample a sufficient
calculation was not equitable to all aquaculture producers, as           number of Recovery Act-funded loans to provide adequate
those who met the program eligibility threshold—of at least a            assurance as to the accountability and propriety of Recovery
25-percent price increase of 2008 feed costs above the previous          Act expenditures.
5-year average—would receive grant funds covering their
                                                                         With respect to direct farm operating loans funded by the
entire losses, but producers below that threshold would be
                                                                         Recovery Act, we recommended that FSA consider revising
entirely ineligible.
                                                                         its compliance procedures to (1) perform reviews earlier in
FSA stated that its payment calculation was most beneficial to           the loan cycle to ensure on a timelier basis that borrowers are
producers, given the limited funding available and payment               eligible and funds are properly used and (2) ensure an adequate
limitations set for FSA farm programs. We maintain that eligible         sample of Recovery Act-funded loans is selected for review.
producers should receive grant funds for only those losses that          Generally, FSA agreed with our recommendations and agreed
exceed the eligibility threshold. In the second phase of our audit       to amend its review process to require that a minimum number
of the grant program, we plan to review State distribution of            of Recovery Act files be reviewed. Recovery Act Fast Report
grant funds, oversight performed, and completion of reporting            (Audit Report Number 03703-1-Te (1), Recovery Act–Direct
requirements. We will include additional coverage of the                 Farm Operating Loans–Phase 1)
payment calculation issue at that time.




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half      15
                                                                  Goal 2




 GOVERNMENTWIDE ACTIVITIES—GOAL 2                                               Act of 1978 (IG Act). OIGs are charged with
                                                                                operating independently and objectively within their
 Review of Legislation, Regulations, Directives,                                respective establishments and serving the public by
 and Memoranda                                                                  reporting potential waste, fraud, and abuse to their
                                                                                respective agencies and Congress. Further, under the
 σσ    Whistleblower Protection Enhancement Act of 2009
                                                                                IG Act, OIGs may not exercise program operating
       (H.R. 1507). OIG reviewed this bill and, in general,
                                                                                responsibilities and manage agency programs, which
       supports the bill’s objective of expanding protections
                                                                                this legislative provision would appear to require.
       for individuals engaged in credible whistleblower-type
       activities. OIG was, however, concerned that the bill               σσ   Proposed Rule 7 C.F.R. Section 1580.301, the Trade
       would require IGs to pursue complaints that may not                      Adjustment Assistance for Farmers (TAAF) Program.
       warrant an OIG investigation. Examples would be                          The TAAF program was reauthorized by the Recovery
       complaints that have already been evaluated by Federal                   Act. Under this program, USDA provides producers
       agency personnel or complaints of a contractor’s                         with technical assistance and cash benefits when the
       employee who has already invoked another Federal                         national average price of the commodity that they
       or State judicial or administrative process. Therefore,                  produce has decreased by more than 15 percent. The
       OIG recommended that the final version of the bill                       proposed rule stipulated how a group of producers
       provide IGs some degree of substantive discretion to                     can petition for certification of eligibility and how
       decline complaints meeting these criteria. OIG was                       individual producers can apply for benefits. OIG
       also concerned that the bill mandates an IG complete                     had two comments on the proposed rules. First,
       an investigation within a certain time period, unless                    OIG felt that provisions concerning adjusted gross
       the complainant agrees to an extended timeframe.                         income limitations needed to be more explicit in their
       OIG recommended that, in lieu of mandatory time                          requirements. Second, OIG felt that the provisions
       limits, a reporting requirement be substituted so that                   regarding how payments from other USDA programs
       an OIG would advise a complainant and agency                             would be used to calculate the benefits under the
       heads at appropriate intervals about OIG investigative                   TAAF program also needed to be more explicit.
       determinations related to the whistleblowers. Lastly,               Participation on Committees, Working Groups,
       OIG recommended that language in the bill requiring                 and Task Forces
       disclosure of an IG investigation be modified so that
       when an IG investigation is still pending and disclosure            σσ   Comments were provided to an intra-departmental
       could reasonably be expected to interfere with the                       task force that developed regulations for the TAAF
       investigation, the disclosure would not be required.                     program, a $202 million program reauthorized by
                                                                                the Recovery Act. Suggestions offered by OIG were
 σσ    Whistleblower Protection Enhancement Act of 2009
                                                                                considered and included in the revised Benefit-
       (S. 372). OIG reviewed this bill and—as in the
                                                                                Cost Analysis required by Executive Order 12866
       case of H.R. 1507—supports the bill’s objective
                                                                                and in the proposed Federal regulation that was
       of expanding protections for individuals engaged
                                                                                published in the August 25, 2009, Federal Register.
       in credible whistleblower-type activities. Many of
       the provisions in H.R. 1507 that generated OIG                      σσ   Three OIG investigators are participating part
       comments and recommendations were not present                            time on U.S. Marshals Service initiatives. Two are
       in S. 372. OIG was, however, concerned with a                            with the Southern Ohio Fugitive Apprehension
       provision that would require all IGs to have in their                    Strike Team in Columbus and Cincinnati, Ohio,
       offices a “Whistleblower Protection Ombudsman” who                       and another OIG investigator is with the Great
       would educate agency personnel about whistleblower                       Lakes Regional Fugitive Task Force in Chicago,
       protections, advocate on behalf of whistleblowers, and                   Illinois. They are helping to locate and arrest
       advise whistleblower complainants. OIG objected to                       fugitives by comparing fugitive identification
       this provision of the bill, as it appears to be contrary                 information against the list of SNAP recipients.
       to the role of an OIG under the Inspector General




16    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                               Goal 2




σσ   An OIG investigator is participating on the Ohio                         Chicago, Illinois, since 2008. The mission of the
     Organized Crime Investigations Commission                                task force is to apprehend Federal fugitive felons
     (OOCIC) Task Force in Dayton. OOCIC                                      wanted in the Northern District of Illinois. OIG’s
     provides assistance to local law enforcement                             participation in this task force is in conjunction
     agencies in the investigation of organized criminal                      with our Operation Talon program.
     activity. OIG investigators have participated
                                                                        ONGOING AND PLANNED REVIEWS FOR GOAL 2
     in the OOCIC Dayton Task Force since 1996
     and have conducted investigations involving                        Topics that will be covered in ongoing or planned reviews
     welfare recipients, SNAP benefits trafficking,                     under Goal 2 include:
     mortgaged farm equipment stolen from farmers,
                                                                        σσ    CACFP followup (FNS),
     stolen property trafficking, and dogfighting.
                                                                        σσ    status of improper payment
σσ   One OIG investigator is participating part-time with
                                                                              information reporting (FNS),
     the Indianapolis Metropolitan Police Department and
     Indianapolis Animal Care and Control in Indianapolis,              σσ    SNAP State- and county-based
     Indiana. The task force is investigating illegal animal                  administrative costs (FNS),
     fighting, including dogfighting and cockfighting.                  σσ    Biomass Crop Assistance Program (FSA),
σσ   An OIG special agent has been working with                         σσ    Farm Storage Facility Loan Program (FSA),
     the FBI’s Safe Streets Task Force in Indianapolis,
                                                                        σσ    Conservation Reserve Program soil rental rates (FSA),
     Indiana, since 2000. The mission of the task force
     is to deter street gang and drug-related violence,                 σσ    Farm Bill changes to payment limitations (FSA),
     as well as to seek the most significant fugitives                  σσ    citrus indemnity payments resulting from
     wanted for crimes of violence through long-term,                         2005 Florida hurricanes (RMA),
     proactive, and coordinated teams of Federal, State,                σσ    USDA payments for 2005 citrus
     and local law enforcement officers and prosecutors.                      canker losses (RMA, FSA),
σσ   OIG investigators are participating on a Bridge                    σσ    oversight of approved insurance providers’
     Card Enforcement Team task force to investigate                          (AIP) quality control process (RMA),
     criminal violations of SNAP and the USDA Special
     Supplemental Nutrition Program for Women,                          σσ    controls over the use of new producer
     Infants, and Children (WIC). Members include                             designation by AIPs (RMA),
     the Michigan State Police and IRS-CI. The FBI,                     σσ    controls over group risk crop insurance (RMA),
     SSA OIG, and ICE have provided assistance during                   σσ    controls over Pasture, Rangeland, and
     warrant operations. The initiative, which has been                       Forage Loss Pilot Program (RMA),
     operational since 2007, has resulted in 83 arrests and
                                                                        σσ    controls over policy holder yield database (RMA),
     98 search warrants served throughout the State of
     Michigan. Criminal prosecutions are being pursued                  σσ    Biotech Yield Endorsement Pilot Program (RMA),
     through the United States Attorney’s Office for the                σσ    Catastrophic Risk Protection Program (RMA),
     Eastern and Western Districts of Michigan and the
                                                                        σσ    oversight of organic crop insurance insureds (RMA) ,
     Michigan Attorney General’s Office. The cases so
     far have resulted in 69 guilty pleas and sentences                 σσ    Rural Rental Housing (RRH) Program
     that included incarceration, fines, and restitution.                     construction costs (RHS),
     Forfeiture actions of more than $2 million have been               σσ    controls over expenditures in water and
     initiated by the United States Attorney’s Office. The                    waste disposal grants–Alaska (RUS),
     task force is expected to continue through FY 2010.                σσ    business and industry (B&I) lender
σσ   An OIG special agent has been assigned to the                            loan guarantees (RBS),
     U.S. Marshals Service Fugitive Task Force in




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half             17
                                                              Goal 2




 σσ    Emergency Conservation Program—2008                             σσ    SNAP increased benefits from
       emergency disaster assistance (FSA), and                              Recovery Act funds (FNS),
 σσ    Hurricane Indemnity Program–integrity                           σσ    FS capital improvement and maintenance,
       of data provided by RMA.                                        σσ    wildland fire management (FS),
 The findings and recommendations from these efforts will              σσ    direct farm operating loans (FSA),
 be covered in future Semiannual Reports as the relevant
                                                                       σσ    controls over Aquaculture Grants (FSA),
 audits and investigations are completed.
                                                                       σσ    verification of income eligibility for
 ONGOING AND PLANNED REVIEWS FOR GOAL 2                                      program payments (FSA),
 UNDER ARRA “RECOVERY ACT” FUNDS                                       σσ    rural business enterprise grants (RBS),
 Topics that will be covered in ongoing or planned reviews             σσ    B&I loan guarantees (RBS),
 for Goal 2 under ARRA include:                                        σσ    controls over eligibility determinations for single-family
 σσ    summary of nationwide EBT operations (FNS),                           housing guaranteed loan Recovery Act funds (RHS),

 σσ    WIC contingency funding (FNS),                                  σσ    rural communities facilities loans and grants (RHS),

 σσ    Recovery Act impacts on SNAP (FNS),                             σσ    single-family housing (SFH) direct loans
                                                                             Recovery Act funds (RHS), and
 σσ    controls over the Emergency Food
       Assistance Program (FNS),                                       σσ    monitoring implementation of trade adjustment
                                                                             assistance for farmers (Foreign Agricultural Service
 σσ    State fraud detection efforts for SNAP (FNS),
                                                                             (FAS)), FSA, Economic Research Service, ARS,
 σσ    controls over outsourcing of SNAP                                     and the National Institute for Food and Agriculture
       EBT customer assistance (FNS),                                        (NIFA)—formerly the Cooperative State Research,
 σσ    FS administration of grants,                                          Education, and Extension Service (CSREES)).

 σσ    FNS management and oversight of SNAP,                           The findings and recommendations from these efforts will
 σσ    equipment grants for child nutrition programs (FNS),            be covered in future Semiannual Reports as the relevant
                                                                       audits and investigations are completed.
 σσ    equipment grants for the Food Distribution
       Program on Indian reservations (FNS),




18    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                    Goal 3




Management Improvement Initiatives
OIG Strategic Goal 3:                                                    EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                         GOAL 3
Support USDA in implementing its management
improvement initiatives.                                                 Grain Inspection, Packers and Stockyards
                                                                         Administration (GIPSA) Needs To Further Improve
OIG conducts audits and investigations that focus on such                Management and Oversight of the Packers and
areas as improved financial management and accountability, IT            Stockyards Program (P&SP)
security and management, research, real property management,
employee corruption, and the Government Performance                      After requests by Congress and the former GIPSA
and Results Act. Our work in this area is vital because the              Administrator to follow up on our 2006 audit, we found overall
Department is entrusted with $128 billion in public resources            that GIPSA’s management and oversight of its P&SP has
annually. The effectiveness and efficiency with which USDA               improved and that P&SP has a good working relationship with
manages its assets are critical. USDA depends on IT to                   the Office of the General Counsel (OGC). However, GIPSA
efficiently and effectively deliver its programs and provide             needs to further improve program operations by strengthening
meaningful and reliable financial reporting. One of the more             management and oversight of investigations and by fully
significant dangers USDA faces is a cyberattack on its IT                implementing agreed-upon corrective actions. We identified
infrastructure, whether by terrorists seeking to destroy unique          significant delays in investigation resolution at GIPSA
databases or criminals seeking economic gains.                           headquarters, regional offices, and OGC. For instance, we
                                                                         found that 41 of 123 investigations forwarded to headquarters
In the second half of FY 2009, we devoted 30 percent of                  for enforcement action and subsequently referred to OGC
our total direct resources to Goal 3, with 99.1 percent of               for legal action were without resolution for 500 or more days
these resources assigned to critical/high-impact work. A total           as of December 31, 2007. P&SP did not formally assign
of 100 percent of our audit recommendations under Goal                   responsibility for monitoring the progress of investigations,
3 resulted in management decision within 1 year, and 81                  and the program’s systems in place did not adequately track
percent of our investigative cases resulted in criminal, civil,          investigations. Furthermore, P&SP did not ensure that Notice
or administrative action. OIG issued 13 audit reports under              of Violation follow-up investigations were performed within
Goal 3 during this reporting period and a total of 25 during             180 days, as required by the program’s policy directives. We
the full fiscal year. OIG’s investigations under Goal 3 yielded 6        also found that P&SP guidance was not always consistent.
indictments, 1 conviction, and $495,127 in monetary results              Finally, P&SP did not completely implement corrective actions
during this reporting period and a total of 14 indictments, 17           for 4 of 10 recommendations made in the 2006 audit. P&SP
convictions, and about $1.3 million in monetary results during           implemented policies to address our prior recommendations,
the full fiscal year.



  Management Challenges Addressed UNDER GOAL 3
  σσ     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1, 2, and 4)
  σσ     Implementation of Strong, Integrated, Internal Control Systems Still Needed (also under Goal 2)
  σσ     Continuing Improvements Needed in IT Security (also under Goal 1)
  σσ     Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
  σσ     USDA Needs To Develop a Proactive, Integrated Strategy To Assist American
         Producers To Meet the Global Trade Challenge (also under Goal 1)
  σσ     Better FS Management and Community Action Needed To Improve the Health of the National
         Forests and Reduce the Cost of Fighting Fires (also under Goals 1 and 4)




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half     19
                                                                     Goal 3




but the program did not have a process in place to ensure these           loan servicing action occurred. (Audit Report Number 03601-
policies were carried out.                                                49-Te, Socially Disadvantaged Borrower Foreclosures–Farm
                                                                          Program Loans)
GIPSA concurred with OIG’s seven recommendations, which
focused on strengthening controls over investigation resolution.          FS Needs To Strengthen Its Case for New Aircraft
The recommendations are objectives that GIPSA management                  and Reinstate Its Working Capital Fund (WCF) for
had already identified as goals and that GIPSA had been                   Aircraft Replacement
addressing since receiving the 2006 OIG audit findings.
                                                                          Our audit found that FS’ documentation to support acquiring
GIPSA agreed to take a number of major actions to strengthen
                                                                          critically needed new firefighting aircraft did not present the
operations and to implement the OIG recommendations,
                                                                          best case to justify buying new aircraft. FS’ key airtanker
including the deployment of an automated management
                                                                          fleet has an average age of 50 years. More than half of the
information system that records—and systematically monitors
                                                                          44 airtankers available under contract in 2004 were grounded
the status of—investigative case files from complaint to final
                                                                          for safety concerns, and by 2012 the remaining 19 airtankers
resolution in OGC. Further, GIPSA agreed to post on its
                                                                          will begin to be either too expensive to maintain or no longer
internal Web site an employee manual that consolidates all
                                                                          airworthy. The availability of suitable aircraft has significantly
of P&SP’s operational guidance and replaces a dated set of
                                                                          changed over the years, likely making it necessary for FS to
separate directives. (Audit Report No. 30016-2-Hy, Followup
                                                                          purchase the airtankers—at a cost of up to $2.5 billion—rather
Audit of the Management and Oversight of P&SP)
                                                                          than lease them.
Decisions To Foreclose on Socially Disadvantaged
Farm Loan Borrowers Were Generally Consistent and
in Conformity With Applicable Laws and Regulations
Our audit found that the Department’s decisions to implement
foreclosure proceedings with respect to socially disadvantaged
borrowers were generally consistent and in conformity with
applicable laws and regulations. Under the 2008 Farm Bill,
Congress had directed OIG to determine whether FSA
decisions to implement foreclosure proceedings with respect
to direct farm program loans made to socially disadvantaged
farmers or ranchers during the preceding 5‑year period
were consistent and in conformity with applicable laws
and regulations. For purposes of FSA’s farm loan programs,
women, African Americans, American Indians, Alaskan                       One of the remaining 19 airtankers FS has left under contract
Natives, Hispanics, Asian Americans, and Pacific Islanders are            (down from 44 in 2002) that will be either too expensive to
considered to be socially disadvantaged farmers or ranchers.              maintain or no longer airworthy by 2012. The aircraft is a P-3
                                                                          and is over 45 years old. Zion Helitack, Zion National Park photo.
We did find some instances in which FSA did not technically
conform to prescribed timeframes. However, the rate of                    In the documentation used to justify purchasing new aircraft,
exception was low, and, for the exceptions noted, there was no            the agency had not (1) used aviation firefighting performance
statistically significant difference in treatment when foreclosing        measures that directly demonstrate cost impact, (2) collected
on socially disadvantaged farmers and ranchers compared to                current aviation performance data to determine how new
their non-socially disadvantaged peers. The noted exceptions              aircraft will improve firefighting performance, or (3) formally
involved timeliness issues, which were eventually corrected.              established an integrated team to take charge of developing the
For example, we found a few cases in which letters notifying              agency’s exhibit 300 (OMB budget document). The agency
borrowers that they were delinquent were not sent out on a                had also not properly used the Working Capital Fund to help
timely basis, but letters were eventually sent before the next




20     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                   Goal 3




pay for repairing and replacing the aircraft. When the FS’              tuition reimbursement and laboratory equipment that had been
lead planes had to be taken out of service for safety reasons,          returned. ARS generally agreed with our findings and has taken
there were no funds in the account to purchase replacement              appropriate corrective action. (Audit Report No. 02601-1-SF,
aircraft. FS agreed with the recommendations to correct                 ARS Management Controls Over Research Agreements)
these shortcomings. (Audit Report No. 08601-53-SF, FS’
                                                                        Former RMA Employee Sentenced for Online
Replacement Plan for Firefighting Aerial Resources)
                                                                        Prostitution Ring
Risk Management Agency’s (RMA) Compliance                               In August 2009, a former RMA statistician in Missouri and
Activities Need To Be Strengthened To Ensure the                        her co-conspirator boyfriend each pled guilty to conspiracy
Integrity of the Crop Insurance Program                                 to use interstate commerce to facilitate prostitution. Using
Our audit found that RMA can improve the integrity of                   various aliases, the two used Web sites, e-mail accounts, and cell
the crop insurance program by strengthening its oversight               phones to operate, manage, and run prostitution businesses.
of private companies that sell the insurance and by ensuring            The former RMA employee used her RMA-issued laptop
that they comply with applicable rules. To accomplish this,             computer during her business day to operate and manage the
RMA should first conduct a risk assessment to identify                  prostitution business and to correspond with clients throughout
program vulnerabilities and then develop an integrated and              several States. In August 2009, she was sentenced to serve 24
comprehensive, systematic, and well-defined strategy for                months of probation, based in part on her cooperation with the
improving the integrity of the crop insurance program. We               investigation. The boyfriend was sentenced to serve 15 months
also recommended that RMA follow the Agricultural Risk                  in Federal prison, followed by 24 months of supervised release.
Protection Act by reconciling producer data with the Farm
                                                                        FS Grants Coordinator in Wisconsin Sentenced for
Service Agency, maximizing data mining effectiveness, and
                                                                        Misappropriating $320,000 in Government Purchase
evaluating agents’ and insurance adjusters’ performance.
                                                                        Card Convenience Checks
Together, these steps will increase RMA’s oversight of the crop
insurance program, which, in 2008, had liabilities totaling             Our investigation of a FS grants and agreements coordinator
$90 billion.                                                            in Milwaukee, Wisconsin, determined that she deposited 86
                                                                        purchase card convenience checks totaling $174,700 into her
RMA concurred with 14 of our 22 recommendations, but
                                                                        personal bank account, and 43 checks totaling $103,000 into
has not agreed with us about key issues we identified, such
                                                                        a joint account with her husband. An additional 31 checks
as its need to assess the crop insurance program’s risk and
                                                                        totaling approximately $43,000 were written to vendors who
to develop and document an integrated overall compliance
                                                                        had no association with the agency. In May 2009, the employee
strategy. RMA states that it has “in place and operational an
                                                                        pled guilty in United States District Court, Eastern District of
overall compliance strategy, and a risk assessment process for
                                                                        Wisconsin, to theft of Government funds, and was sentenced to
identifying program vulnerabilities.” (Audit Report No. 05601-
                                                                        12 months of imprisonment, 36 months of supervised release,
11-At, RMA Compliance Activities).
                                                                        and $320,000 in restitution. She had been removed from her
Agricultural Research Service (ARS) Properly                            position in September 2004.
Administered Cooperative Research Agreements                            APHIS Clerk in Arkansas Embezzles Over $11,000
Overall, we found that ARS properly administered its                    from Boll Weevil Eradication Program
cooperative research agreements, for which ARS provided
                                                                        In July 2009, in the Eastern District of Arkansas, a former
$134 million to other organizations, such as colleges and
                                                                        payroll clerk with APHIS’ Arkansas Boll Weevil Eradication
universities, in FYs 2005 and 2006. Although we identified
                                                                        Program was sentenced to serve 36 months of probation and
unused funds totaling $2.75 million that should have been
                                                                        ordered to pay $11,886 in restitution. From approximately
deobligated, the agency has since strengthened its controls over
                                                                        December 2006 to May 2007, the employee embezzled
the agreement closeout process. We also found one cooperator
                                                                        $11,886 from the Arkansas Boll Weevil Program by changing
that ARS reimbursed for $51,000 in unallowable costs for
                                                                        former employees’ direct deposit bank account numbers to




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half         21
                                                                   Goal 3




her own account number and submitting payroll payments for              entered into an agreement for alternative discipline with the
those former employees.                                                 employee, to remain in effect for 4 years, which prohibits her
                                                                        from engaging in any additional acts of misconduct.
Employees at USDA Laboratory Facilities Face
Administrative Sanctions for Buying and Selling                         National Finance Center (NFC) Receives Unqualified
Prescription Drugs Without a Prescription                               Opinion on Its General Controls
As reported in the SARC for the first half of FY 2009, a                Our review disclosed that NFC’s description of controls
biological science laboratory technician at APHIS’ National             presented fairly, in all material respects, the relevant aspects of
Veterinary Services Laboratories, Ames, Iowa, and two                   NFC controls that had been placed in operation as of June 30,
veterinarians at APHIS’ Center for Veterinary Biologics,                2009. Also, in our opinion, the controls included in the
Ames, Iowa, purchased prescription drugs from veterinary                description were suitably designed and operating with sufficient
supply companies and resold them to other USDA laboratory               effectiveness to provide reasonable assurance that associated
employees at cost. The drugs were ordered using the subject             control objectives would be achieved. (Audit Report No.
veterinarians’ accounts at veterinary supply companies. The             11401-30-FM, FY 2009 Statement on Audit Standards No. 70,
laboratory technician then facilitated the sale of the drugs to         Report on NFC General Controls)
USDA employees, who used many of the prescription drugs
                                                                        Retirement, Health, and Life Insurance Withholdings/
to treat themselves or family members for various medical
                                                                        Contributions Were Reasonable
ailments and illnesses. The FDA confirmed that approximately
67 of the approximately 80 drugs sold were for human use and            As required annually by OMB, we assisted the Office of
required a prescription from a physician before they could be           Personnel Management (OPM) in assessing the reasonableness
dispensed.                                                              of retirement, health, and life insurance withholdings/
                                                                        contributions and employee data submitted by the Office of
One USDA employee was terminated in June 2009, one
                                                                        Chief Financial Officer (OCFO)/NFC. We found that no
resigned, and two others retired before disciplinary action
                                                                        differences exceeded the allowable OPM thresholds. (Audit
could be imposed. During May and June 2009, a total of 12
                                                                        Report No. 11401-31-FM, FY 2009 Agreed-Upon Procedures:
other USDA employees were ultimately suspended for terms
                                                                        Retirement, Health Benefits, and Life Insurance Withholdings/
of between 21 to 45 days. Many of the suspensions were
                                                                        Contributions and Supplemental Semiannual Headcount
significantly reduced provided that the employee complete a
                                                                        Report Submitted to OPM)
series of ethics courses and avoid further problems for 2 years.
                                                                        OCIO/National Information Technology Center’s
FSIS Employee Fraudulently Obtains Rental                               (NITC) Controls Were Suitably Designed and
Subsidy Benefits                                                        Operating Effectively
Our joint investigation with the U.S. Department of Housing
                                                                        Our review of the OCIO/NITC internal controls as of
and Urban Development OIG revealed that an FSIS employee,
                                                                        June 30, 2009, disclosed that the documentation of control
while living in public housing owned by the District of
                                                                        objectives and techniques provided by OCIO/NITC presented
Columbia Housing Authority (DCHA), underreported her
                                                                        fairly, in all material aspects, the relevant aspects of OCIO/
income from 1999 to 2006 in order to fraudulently receive
                                                                        NITC’s controls taken as a whole and that those controls had
approximately $57,467 in Federal housing rental subsidy
                                                                        been placed in operation. Also, in our opinion, the policies
benefits to which she was not entitled. The employee was
                                                                        and procedures were suitably designed to provide reasonable
charged with filing false claims and fraud in obtaining public
                                                                        assurance that the control objectives would be achieved and
assistance and subsequently pled guilty in U.S. District Court
                                                                        operate effectively. (Audit Report No. 88501-13-FM, FY
for the District of Columbia. She was sentenced to 36months
                                                                        2009 Statement on Audit Standards No. 70, Report on NITC
of probation, including 300 hours of community service, and
                                                                        General Controls)
was ordered to pay $57,467 in restitution to DCHA. FSIS




22     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                  Goal 3




GOVERNMENTWIDE ACTIVITIES–GOAL 3                                                the following year’s review. As a result, similar findings
                                                                                would be reported from year to year while agencies
Review of Legislation, Regulations, Directives,                                 worked to modify internal control structures. Past
and Memoranda                                                                   experience demonstrates that a longer time period
                                                                                between reviews might be more likely to provide the
σσ   Government Credit Card Abuse Prevention Act of 2009
                                                                                component reviewed with sufficient time to address
     (S. 942). OIG reviewed this bill, which proposes new
                                                                                control issues that have been identified before the
     safeguards and internal controls for use of Government
                                                                                next review begins. OIG recommended that: (1) an
     travel charge cards and purchase cards. One of the
                                                                                IG be able to exercise some judgment as to which
     bill’s provisions requires that each head of an executive
                                                                                relevant agency programs to review and also be able to
     agency with more than $10 million in annual purchase
                                                                                exercise some discretion as to the scope of that review
     card and travel card spending, and each IG of such
                                                                                and (2) the schedule for such reviews be revised to
     executive agencies, on a semiannual basis, submit a
                                                                                allow more time between reviews (e.g., “once every
     report to the Director of OMB on violations regarding
                                                                                3 years” or “periodically” at the IG’s discretion).
     purchase cards, convenience checks, and travel cards.
     OIG suggested that an annual report or a periodic                     Participation on Committees, Working Groups,
     report as instances of misconduct and penalties warrant               and Task Forces
     may be more appropriate. For many smaller agencies,
                                                                           σσ   Council of the Inspectors General on Integrity and
     there may be insufficient instances of misconduct to
                                                                                Efficiency (CIGIE). The USDA IG chairs this Council
     warrant semiannual reporting. Additionally, OIG
                                                                                of 69 Federal IGs. The IG Reform Act of 2008
     recommended that these reports be transmitted by
                                                                                established CIGIE by merging two previous IG
     OMB to the Congress and GAO, which would provide
                                                                                Councils: the President’s Council on Integrity and
     them with a broader picture of the violations and
                                                                                Efficiency and the Executive Council on Integrity
     enable GAO to enhance its risk assessment program.
                                                                                and Efficiency. During this reporting period, CIGIE
σσ   Improper Payments Elimination and Recovery Act of                          initiated a study on the proactive and preventative
     2009 (IPERA) (S. 1508). Based upon its review of                           measures undertaken by IGs in the area of Recovery
     IPERA, OIG supports the bill but had some concerns                         Act oversight and a study on the implementation of
     with a few of its specific provisions. Section 2(g) would                  OMB requirements regarding agency and OIG Web
     require OMB to determine when an agency should be                          Sites. CIGIE has worked on establishing a permanent
     required to obtain an opinion on internal controls over                    administrative structure and a funding mechanism.
     financial reporting. Currently, when OIG conducts                          CIGIE also took steps toward creating a unified
     its annual financial statement audits, it reports on                       training structure; it kicked off first introductory
     any internal control issues that are identified during                     training course for auditors in September 2009.
     the audit, but it does not provide an opinion on the
                                                                           σσ   Recovery Accountability and Transparency Board (RATB).
     agency’s internal control structure. OIG estimated that
                                                                                The RATB was established by the Recovery Act of
     requiring it to provide such an opinion would double
                                                                                2009 to coordinate and conduct oversight of the
     the amount of time and resources needed to conduct
                                                                                funding expended by the Act. The USDA IG is one
     financial statement audits. Also, Section 3(b) of the bill
                                                                                of the IGs designated as a member of the Board by
     would require an OIG to perform annual compliance
                                                                                the Recovery Act. The RATB is tasked with a number
     reviews to ascertain if an agency is in compliance with
                                                                                of duties, including oversight of certain aspects of
     the IPERA. USDA has more than 300 programs that
                                                                                contracts and grants using Recovery Act funds,
     make some type of payment. Consequently, requiring
                                                                                reviewing wasteful spending and poor management
     OIG to conduct an annual compliance review of these
                                                                                practices related to the Act, and maintenance of the
     programs would be a major undertaking. Furthermore,
                                                                                Recovery.gov Web site. The RATB has worked with
     OIG was concerned that annual compliance reviews
                                                                                CIGIE to ensure effective coordination of the work
     may not provide agencies with sufficient time to make
                                                                                of the IGs performing Recovery Act oversight, as
     corrections and address any recommendations before




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half             23
                                                                  Goal 3




       well as other bodies such as GAO and the State and                  σσ    effectiveness and enforcement of debarment
       local governments. During this period, the RATB                           and suspension regulations in USDA,
       and CIGIE spearheaded reviews of contract and                       σσ    effectiveness of FSA’s counter-cyclical
       grant staffing and qualifications and of the quality of                   payments based on historical yield,
       data reported by agencies under the Recovery Act.
                                                                           σσ    international trade policy and
 σσ    Financial Statement Audit Network (FSAN) Workgroup.                       procedures (FAS, APHIS),
       USDA OIG auditors are members of the FSAN
                                                                           σσ    review of USDA oversight of the select
       workgroup. FSAN consists of OIG auditors from
                                                                                 marketing programs (AMS and FAS),
       numerous Federal agencies, and its main purpose
       is to share ideas, knowledge, and experience                        σσ    implementation of the 2008 Farm Bill provisions
       concerning Federal financial statement audits.                            and mandates (FSA, NRCS, RMA, and RD),
 σσ    National Procurement Fraud Task Force. The USDA                     σσ    USDA security over wireless devices and smartphones
       IG is a member of this task force, formed by the                          (Office of the Chief Information Officer (OCIO)),
       U.S. Department of Justice in October 2006 as a                     σσ    FY 2010 NFC general controls (OCIO),
       partnership among Federal agencies charged with
                                                                           σσ    FY 2010 FISMA (OCIO),
       the investigation and prosecution of illegal acts in
       connection with Government contracting and grant                    σσ    FY 2010 National Information Technology
       activities. The task force has worked to better allocate                  Center general controls (OCIO), and
       resources and improve coordination in procurement                   σσ    annual audits of the Department and
       and grant fraud cases and to otherwise accelerate                         standalone agencies’ financial statements
       investigations and prosecutions. At the regional level,                   for FYs 2009 and 2010 (OCFO).
       OIG Investigations field offices in the Northeast, Great
                                                                           The findings and recommendations from these efforts will
       Plains, Midwest, Southeast, Southwest, and Western
                                                                           be covered in future Semiannual Reports as the relevant
       Regions participate on procurement fraud task forces
       initiated by the local United States Attorneys’ Offices.            audits and investigations are completed.

 ONGOING AND PLANNED REVIEWS FOR GOAL 3                                    ONGOING AND PLANNED REVIEWS FOR GOAL 3
                                                                           UNDER ARRA “RECOVERY ACT” FUNDS
 Topics that will be covered in ongoing or planned reviews
 under Goal 3 include:                                                     Topics that will be covered in ongoing or planned reviews
                                                                           for Goal 3 under ARRA include:
 σσ    USDA accountability of actions taken on
       program civil rights complaints (ASCR/OAC),                         σσ    WIC management information systems (FNS),
 σσ    followup on FS working capital fund,                                σσ    FSA IT infrastructure,
 σσ    firefighting cost share agreements                                  σσ    Healthy Forest Initiatives (FS),
       with non-Federal entities (FS),                                     σσ    FS wood to energy projects (FS),
 σσ    FS acquisition of IT software/hardware,                             σσ    RUS controls over water and waste disposal
 σσ    utilizing geographic information                                          loan and grant programs, and
       system (GIS) data (RHS),                                            σσ    ARRA reporting oversight (OCFO).
 σσ    controls over the economic adjustment                               The findings and recommendations from these efforts will
       assistance to users of upland cotton
                                                                           be covered in future Semiannual Reports as the relevant
       provisions of the 2008 Farm Bill (FSA),
                                                                           audits and investigations are completed.




24    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                     Goal 4




Stewardship Over Natural Resources

OIG Strategic Goal 4:                                                         Management Challenges Addressed UNDER GOAL 4
Increase the efficiency and effectiveness with which                          σσ   Interagency Communications, Coordination,
USDA manages and exercises stewardship over                                        and Program Integration Need Improvement
natural resources.                                                                 (also under Goals 1, 2, and 3)

OIG’s audits and investigations focus on USDA’s management                    σσ   Better FS Management and Community
                                                                                   Action Needed To Improve the Health of
and stewardship of natural resources, including soil, water,
                                                                                   the National Forests and Reduce the Cost of
and recreational settings. Our work in this area is vital because
                                                                                   Fighting Fires (also under Goals 1 and 3)
USDA is entrusted with hundreds of billions of dollars in fixed
                                                                              σσ   Implementation of the Recovery
public assets, such as the 192.5 million acres of national forests
                                                                                   Act (also under Goal 2)
and wetlands. USDA also provides scientific and technical
knowledge for enhancing and protecting the economic
productivity and environmental quality of the estimated                   from receiving payments from multiple contracts. NRCS
1.5 billion acres of forests and associated rangelands in the             did not independently verify applicant-supplied information
United States.                                                            before approving contracts. We also identified 12 producers
In the second half of FY 2009, we devoted 4 percent of our                with multiple contracts who received improper payments
total direct resources to Goal 4, with 100 percent of these               totaling $433,687. In addition, NRCS did not ensure ongoing
resources assigned to critical/high-impact work. We had no                compliance through monitoring of conservation efforts of
audit recommendations under Goal 4, and 66.7 percent of our               participants’ land over the course of their contracts.
investigative cases resulted in criminal, civil, or administrative
action. OIG issued one audit report under Goal 4 during
this reporting period for a total of one for the full fiscal year.
OIG’s investigations under Goal 4 yielded one indictment,
two convictions, and $28,472 in monetary results during
this reporting period and a total of two indictments, three
convictions, and $58,572 in monetary results during the full
fiscal year.

EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
GOAL 4
Management Control Weaknesses Jeopardizes NRCS
Program Goal                                                              Our site visit to a participant’s farm disclosed that a stream was not
Our audit concluded overall that systemic and pervasive                   protected by a required 20-foot buffer.
management control weaknesses over participant and land
                                                                          NRCS has already begun actions to address some key control
eligibility determinations jeopardized NRCS’ goal of using the
                                                                          weaknesses identified during our review. NRCS agreed with
Conservation Security Program (CSP) to reward those meeting
                                                                          our series of recommendations in the report and is pursuing
the very highest standards of conservation and environmental
                                                                          corrective action for all the cases identified and will review each
management on their operations. Of the contracts we reviewed,
                                                                          active CSP contract to validate eligibility and payment accuracy
NRCS awarded more than half (38 of 75) to participants
                                                                          and take appropriate corrective action per NRCS policy. In
who did not qualify for the program or some portion of the
                                                                          addition, NRCS plans to complete its ongoing coordination
conservation payments received, or expected to be received.
                                                                          with USDA agencies to use their existing data to independently
Further, NRCS did not implement a control within its
                                                                          verify applicant-supplied information for similar programs
Program Contracts System (ProTracts) to prevent producers




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half             25
                                                                   Goal 4




(e.g., Conservation Stewardship Program) implemented in the             clauses. Recovery Act Fast Report (Audit Report No. 08703-02-
future. (Audit No. 10601-4-KC, CSP)                                     SF (1), Recovery Act - FS Facility Improvement, Maintenance
                                                                        and Renovation)
RECOVERY ACT REVIEWS
                                                                        Recovery Act Funds May Be Spent Ineffectively
Existing Risk to Forest Service (FS) Recovery
Act Programs                                                            Our audit of NRCS’ controls for implementing the Emergency
                                                                        Watershed Protection program’s floodplain easement (EWPP-
Our review of all past open audit recommendations that could
                                                                        FPE) component noted three potential problems: the cost-
impact internal controls over Recovery Act activities identified
                                                                        effectiveness of NRCS easements on very small tracts of land;
15 recommendations from prior FS audits regarding issues
                                                                        NRCS’ use of tax-assessed value to determine the value of
that, if left unresolved or not mitigated, could introduce a
                                                                        the homes on easements; and NRCS’ lack of procedures for
significant risk for inefficient or improper use of Recovery
                                                                        purchasing homes as part of flood protection easements.
Act funding. The Recovery Act authorized $1.15 billion to
                                                                        The Recovery Act provided $145 million to NRCS so that
FS—$650 million for capital improvement and maintenance
                                                                        the agency, through the EWPP, could purchase easements
and $500 million for wildland fire management projects.
                                                                        on floodplain lands that have been recently flooded or have
FS responded that corrective actions on 13 of the 15
                                                                        a history of repeated flooding. EWPP-FPE allows NRCS to
recommendations had been fully implemented and were
                                                                        acquire permanent easements on private land or certain land
awaiting closure by OCFO. FS was working on completing the
                                                                        owned by State and local governments.
final corrective action for the remaining two recommendations.
                                                                        Given NRCS’ inexperience with easements on small homesites,
FS Needs To Ensure Contractors Comply With the                          we maintain that the agency should improve its procedures
“Buy American Act” Provisions Related to the                            and oversight for easements of this sort. We recommended
Recovery Act                                                            that NRCS revisit the policy of purchasing easements on small
During our visit to two of four Recovery Act-funded                     parcels of land where there are high costs for the acquisition
projects (historical renovation of a ranger district office and         and demolition costs for homes and determine whether it is a
a recreational site restroom) in California, we found that FS’          prudent use of Recovery Act funds; establish comprehensive
contractors had bought red cedar shakes (shingles) made in              EWPP-FPE procedures that address purchasing easements on
Canada without obtaining a waiver from FS, or having their              small parcels of land where acquisition and demolition costs for
need for that type of shingle advertised in the Federal Register.       homes are the primary cost; follow up with NRCS State offices
FS had allocated more than $193 million of Recovery Act funds           to correct EWPP-FPE applications and move costs associated
to improve and eliminate health and safety risks at agency-             with homes and other improvements to restoration costs, not
owned facilities. The Recovery Act requires that when U.S.              easement payment amounts; and identify all EWPP-FPE-
construction material (mined, produced, or manufactured) is             approved applications where homes are the primary restoration
not available, contractors must obtain a waiver, unless otherwise       cost, review each application, and make the appropriate
exempt, from the contracting agency, which then must publish            corrections. NRCS concurred with our recommendations
a notice in the Federal Register to give companies a chance to          and began taking steps to implement the recommendations
provide U.S. materials before foreign materials are purchased. If       upon report issuance. (NRCS recently notified us that it
no U.S. source material is found, then the contractors can buy          was modifying its earlier response and agreed-to corrective
foreign construction materials. FS agreed to increase training          actions to our recommendations. We are working with NRCS
given to partners and contractors to ensure that those receiving        concerning these issues.) Recovery Act Fast Report (Audit
Recovery Act funds and their subcontractors are aware of the            Report No. 10703-1-KC (1), Recovery Act–EWP-P-FPE)
full scope of the legislation and will follow the “Buy American”




26     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                            Goal 4




ONGOING AND PLANNED REVIEWS FOR GOAL 4                               ONGOING AND PLANNED REVIEWS FOR GOAL 4
Topics that will be covered in ongoing or planned reviews
                                                                     UNDER ARRA “RECOVERY ACT” FUNDS
under Goal 4 include:                                                Topics that will be covered in ongoing or planned reviews
σσ    Environmental Quality Incentives Program (NRCS),               for Goal 4 under ARRA include:

σσ    controls and management of drug enforcement                    σσ    hazardous fuels reduction/ecosystem
      issues on National Forest System Land (FS),                          restoration on non-Federal lands (FS),
σσ    Forest Legacy Program (FS),                                    σσ    oversight and control of FS road and trail
                                                                           maintenance and decommissioning; abandoned
σσ    management of oil and gas resources on
                                                                           mine remediation projects; and FS facility
      national forest system land (FS),
                                                                           improvement, maintenance, and renovation activities
σσ    FS processes to obtain and grant                                     at agency-owned buildings and recreation sites,
      rights of way and easements,
                                                                     σσ    oversight and control of watershed and flood
σσ    FS administration of special use permits, and                        prevention operations (NRCS), and
σσ    FS watershed management.                                       σσ    oversight and control of watershed
The findings and recommendations from these efforts will                   rehabilitation program (NRCS).
be covered in future Semiannual Reports as the relevant              The findings and recommendations from these efforts will
audits and investigations are completed.                             be covered in future Semiannual Reports as the relevant
                                                                     audits and investigations are completed.




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half           27
                                                               Impact of the OIG




Gauging the Impact of OIG
MEASURING PROGRESS AGAINST THE OIG                                        For audits we show
STRATEGIC PLAN                                                            σσ       reports issued
The first way we gauged our impact was by measuring the                   σσ       management decisions made (number of
extent to which our work focused on the key issues under our                       reports and recommendations)
newly revised goals that became effective in FY 2008:                     σσ       total dollar impact of management-decided reports
                                                                                   (questioned costs and funds to be put to better use)
1.	   Strengthen USDA’s ability to implement safety and
      security measures to protect the public health as                   σσ       program improvement recommendations
      well as agricultural and Departmental resources.                    σσ       audits without management decision
2.	   Reduce program vulnerabilities and strengthen program
                                                                          For investigations we show
      integrity in the delivery of benefits to program participants.
                                                                          σσ       indictments
3.	   Support USDA in implementing its
      management improvement initiatives.                                 σσ       convictions
4.	   Increase the efficiency and effectiveness with which USDA           σσ       arrests
      manages and exercises stewardship over natural resources.           σσ       total dollar impact (recoveries, restitutions, fines)
IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK ON                             σσ       administrative sanctions
DEPARTMENT PROGRAMS                                                       σσ       OIG Hotline complaints
A second way we gauge our impact is by tracking the
outcomes of our audits and investigations. Many of these
measures are codified in the IG Act of 1978, as amended. The
following pages present a statistical overview of the OIG’s
accomplishments this period.


                               PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                                         FY 2009           FY 2009
                                                                                             FY 2008      FY 2009
 Performance Measures                                                                                                    2nd Half          Full Year
                                                                                              Actual       Target
                                                                                                                          Actual            Actual

 OIG direct resources dedicated to critical-risk and high-impact work                        95.3%         90%           95.9%              95.3%


 Audit recommendations resulting in management decision within 1 year of
                                                                                             84.3%         85%           98.2%              88.8%
 report issuance

 Closed investigations previously referred for action that resulted in an
 indictment, conviction, civil suit or settlement, judgment, administrative                  72.5%         65%           74.2%              76.8%
 action, or monetary result




28     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                          Impact of the OIG




RECOGNITION OF OIG EMPLOYEES BY THE PRESIDENT        COUNCIL OF THE INSPECTORS GENERAL ON INTEGRITY
AND IG COMMUNITY                                     AND EFFICIENCY (CIGIE) AWARDS
PRESIDENTIAL RANK AWARD                              Glen/Roth Award for Exemplary Service
Meritorious Executive                                David R. Gray
                                                     Counsel to the Inspector General
David R. Gray
Counsel to the Inspector General                     Awards for Excellence
                                                     Nursery Crop Insurance Audit Team
                                                     Audit
                                                     Rehabilitation of Flood Control Dams Audit Group
                                                     Audit
                                                     Operation Tattered Wing/Red Rooster Investigation Team
                                                     Multiple Disciplines
                                                     School Lunch Fraud Team
                                                     Investigations
                                                     Hickman Mills Prosecution Team
                                                     Investigations




                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half   29
                                                                     Impact of the OIG




                                SUMMARY OF AUDIT ACTIVITIES—APRIL 2009–SEPTEMBER 2009
Reports Issued                                                                                                                               25
     Audits Performed by OIG                                                                                                                 23
     Evaluations Performed by OIG                                                                                                              0
     Audits Performed Under the Single Audit Act                                                                                               0
     Audits Performed by Others                                                                                                                2
Management Decisions Made
     Number of Reports                                                                                                                       19
     Number of Recommendations                                                                                                              111
Total Dollar Impact (Millions) of Management-Decided Reports                                                                               $2.9
     Questioned/Unsupported Costs                                                                                                          $0.2ab
          Recommended for Recovery                                                                                                         $0.1
          Not Recommended for Recovery                                                                                                     $0.1
     Funds To Be Put to Better Use                                                                                                         $2.7
a These were the amounts the auditees agreed to at the time of management decision.
b The recoveries realized could change as the auditees implement the agreed‑upon corrective action
  plan and seek recovery of amounts recorded as debts due the Department.



                          SUMMARY OF INVESTIGATIVE ACTIVITIES—APRIL 2009–SEPTEMBER 2009
     Reports Issued                                                                                                                         147
     Cases Opened                                                                                                                           197
     Cases Closed                                                                                                                           151
     Cases Referred for Prosecution                                                                                                         103
Impact of Investigations
     Indictments                                                                                                                            289
     Convictions                                                                                                                             454a
     Searches                                                                                                                               146
     Arrests                                                                                                                                568
Total Dollar Impact (Millions)                                                                                                            $36.5
     Recoveries/Collections                                                                                                                 $2.1b
     Restitutions                                                                                                                         $21.6c
     Fines                                                                                                                                  $2.8d
     Claims Established                                                                                                                     $1.0e
     Cost Avoidance                                                                                                                         $8.9f
     Administrative Penalties                                                                                                               $0.1g
Administrative Sanctions                                                                                                                     252
     Employees                                                                                                                                36
     Businesses/Persons                                                                                                                     216
a Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the 454
  convictions do not necessarily relate to the 289 indictments.
b Includes money received by USDA or other Government agencies as a result of OIG investigations.
c Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d Fines are court-ordered penalties.
e Claims established are agency demands for repayment of USDA benefits.
f Consists of loans or benefits not granted as the result of an OIG investigation.
g Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




30     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                        Impact of the OIG




                Full FY 2009 Results in Key Categories—OCTOBER 2008–SEPTEMBER 2009
Summary of Audit Activities
Reports Issued                                                                                                     47
Management Decisions Made
     Number of Reports                                                                                             41
     Number of Recommendations                                                                                    348
Total Dollar Impact (Millions) Of Management-Decided Reports                                                   $115.8
      Questioned/Unsupported Costs                                                                               $3.8
      Funds To Be Put to Better Use                                                                            $112.0
Summary of Investigative Activities
Reports Issued                                                                                                    288
Impact of Investigations
     Indictments                                                                                                  517
     Convictions                                                                                                  679
     Arrests                                                                                                      671
Total Dollar Impact (Millions)                                                                                  $83.9
Administrative Sanctions                                                                                          326

               INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                    FROM APRIL 1 THROUGH SEPTEMBER 30, 2009
                                                                                             NUMBER           DOLLAR VALUE
A.     FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY
                                                                                                1                 $874,986
       APRIL 1, 2009
B.     WHICH WERE ISSUED DURING THE REPORTING PERIOD                                            4              $21,407,252
       TOTALS                                                                                   5               $22,282,238
C.     FOR WHICH A MANAGEMENT DECISION WAS MADE DURING THE
                                                                                                1
       REPORTING PERIOD
       (1) DOLLAR VALUE OF DISALLOWED COSTS                                                                     $2,719,532
       (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                                    $25,744
D.     FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY THE
                                                                                                4              $19,536,962
       END OF THE REPORTING PERIOD
       REPORTS FOR WHICH NO MANAGEMENT DECISION WAS MADE
                                                                                                1                 $874,986
       WITHIN 6 MONTHS OF ISSUANCE




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half   31
                                                          Impact of the OIG




                             INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS
                                      FROM APRIL 1 THROUGH SEPTEMBER 30, 2009
                                                                                    DOLLAR VALUES
                                                                                   QUESTIONED COSTS    UNSUPPORTEDa
                                                                          NUMBER      AND LOANS       COSTS AND LOANS
A.     FOR WHICH NO MANAGEMENT DECISION
                                                                              6       $235,729,914        $1,063,024
       HAD BEEN MADE BY APRIL 1, 2009
B.     WHICH WERE ISSUED DURING THIS
                                                                              3         $2,292,659        $1,063,024
       REPORTING PERIOD
       TOTALS                                                                 9        $238,022,573        $1,063,024
C.     FOR WHICH A MANAGEMENT DECISION WAS
                                                                              2
       MADE DURING THIS REPORTING PERIOD
       (1) DOLLAR VALUE OF DISALLOWED COSTS
           RECOMMENDED FOR RECOVERY                                                        $58,095                $0
           NOT RECOMMENDED FOR RECOVERY                                                   $164,000                $0
       (2) DOLLAR VALUE OF COSTS NOT
                                                                                                $0                $0
           DISALLOWED
D.     FOR WHICH NO MANAGEMENT DECISION HAS
       BEEN MADE BY THE END OF THIS REPORTING                                 7       $237,807,833        $1,063,024
       PERIOD
       REPORTS FOR WHICH NO MANAGEMENT
       DECISION WAS MADE WITHIN 6 MONTHS OF                                   5       $235,565,914           $23,889
       ISSUANCE
a Unsupported values are included in questioned values.




32     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                            Impact of the OIG




PROGRAM IMPROVEMENT RECOMMENDATIONS                                    σσ       NRCS agreed to develop cooperative relationships with
                                                                                the State agencies responsible for regulating dams so
A significant number of our audit recommendations carry no                      that the Federal-State partnership has the authority
monetary value per se, but their impact can be immeasurable                     to require the rehabilitation of dams that threaten
in terms of safety, security, and public health. They can also                  public safety; and report to Congress on any high-
contribute considerably toward economy, efficiency, and                         hazard dams in need of rehabilitation that are not
effectiveness in USDA’s programs and operations. During                         rehabilitated due to limitations in the program.
this reporting period, we issued 115 program improvement               σσ       RHS agreed to develop specific minimum requirements
recommendations, and management agreed to implement a                           in the SFH Guaranteed Loan Program for lenders’ quality
total of 104 program improvement recommendations that                           control (QC) processes, monitor lenders’ compliance with
were issued this period or earlier. Examples of the program                     the QC requirements, and establish procedures for field
improvement recommendations issued this period (see the                         staff to verify that lenders set interest rates in accordance
                                                                                with agency guidelines before issuing the loan guarantees.
main text of this report for a summary of the audits that
prompted these program improvement recommendations)                    σσ       RD agreed to establish at least two additional performance
include the following:                                                          measures to better reflect the agency’s success in meeting
                                                                                the purposes and principles of the Recovery Act.
σσ    FSIS agreed to further strengthen its oversight by
                                                                       σσ       GIPSA agreed to strengthen controls over investigation
      analyzing the reasons why foreign countries have
                                                                                resolution; implement a defined process for reviewing,
      rejected U.S. beef products when these products are
                                                                                approving, and issuing program guidance to ensure
      presented for re-entry into the United States.
                                                                                consistency; and implement an effective internal
                                                                                review function as previously recommended.




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half                33
                                                              Impact of the OIG




            SUMMARY OF AUDIT REPORTS RELEASED FROM APRIL 1 THROUGH SEPTEMBER 30, 2009
                 DURING THE 6-MONTH PERIOD FROM APRIL 1 THROUGH SEPTEMBER 30, 2009,
      THE OFFICE OF INSPECTOR GENERAL ISSUED 25 AUDIT REPORTS, INCLUDING 2 PERFORMED BY OTHERS.
                         THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                                               QUESTIONED       UNSUPPORTEDa     FUNDS BE PUT TO
AGENCY                                                   AUDITS RELEASED     COSTS AND LOANS   COSTS AND LOANS     BETTER USE
AGRICULTURAL RESEARCH SERVICE                                  3                    $50,740                          $2,745,276
ANIMAL AND PLANT HEALTH
                                                               1
INSPECTION SERVICE
CHIEF FINANCIAL OFFICER                                        1
FARM SERVICE AGENCY                                            2
FOOD AND NUTRITION SERVICE                                     1
FOOD SAFETY AND INSPECTION
                                                               1
SERVICE
FOREST SERVICE                                                 2
GRAIN INSPECTION, PACKERS AND
                                                               1
STOCKYARDS ADMINISTRATION
MULTIAGENCY                                                    2
NATURAL RESOURCES CONSERVATION
                                                               3                  $2,241,919                       $18,578,603
SERVICE
OFFICE OF THE CHIEF FINANCIAL
                                                               2
OFFICER
RISK MANAGEMENT AGENCY                                         1
RURAL DEVELOPMENT                                              1
RURAL HOUSING SERVICE                                          4                                                       $83,373
TOTALS                                                         25                 $2,292,659                        $21,407,252
TOTAL COMPLETED:
     SINGLE AGENCY AUDIT                                       23
     MULTIAGENCY AUDIT                                         2
     SINGLE AGENCY EVALUATION                                  0
     MULTIAGENCY EVALUATION                                    0
TOTAL RELEASED NATIONWIDE                                      25
TOTAL COMPLETED UNDER
                                                               2
CONTRACTb
TOTAL SINGLE AUDIT ISSUEDc                                     0
a Unsupported values are included in questioned values
b Indicates audits performed by others
c Indicates audits completed as Single Audit




34     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                            Impact of the OIG




                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                     FROM APRIL 1 THROUGH SEPTEMBER 30, 2009
                                                                                     QUESTIONED    UNSUPPORTED       FUNDS TO
                                                                                      COSTS AND     COSTS AND        BE PUT TO
AUDIT NUMBER      RELEASE DATE                         TITLE                            LOANS         LOANS         BETTER USE
Agricultural Research Service
                                       DCAA Audit of International Science
                                       and Technology Center’s (ISTC)
020170009HQ 2009/09/10
                                       Internal Controls for FY 2009
                                       Funded by ARS (Project K-486)
                                       DCAA Audit of International Science
                                       and Technology Center’s (ISTC)
020170010HQ 2009/09/21
                                       Internal Controls for FY 2009
                                       Funded by ARS (Project K-1396P)
                                       Management Controls Over Research
026010001SF       2009/07/15                                                          $50,740                         $2,745,276
                                       Agreements
Total: Agricultural Research Service                                             3    $50,740                         $2,745,276
Animal and Plant Health Inspection Service
                                       Controls over Pilot Qualification and
330990008KC       2009/09/30
                                       Suitability
Total: Animal and Plant Health Inspection Service                                1
Chief Information Officer
                                       Statement on Auditing Standards
                                       No. 70 Audit National Information
885010013FM       2009/09/04
                                       Technology Center–General Controls
                                       Review–Fiscal Year 2009
Total: Chief Information Officer                                                 1
Farm Service Agency
                                       Tobacco Transition Payment
036010016AT       2009/08/03
                                       Program—Quota Producers
                                       Socially Disadvantaged Borrowerm
036010049TE       2009/06/08
                                       Foreclosures—Farmer Program Loans
Total: Farm Service Agency                                                       2
Food and Nutrition Service
                                       Follow-up on FNS Disaster
                                       Supplemental Nutrition Assistance
276010011TE       2009/06/02
                                       Program for Hurricanes Katrina and
                                       Rita
Total: Food and Nutrition Service                                                1
Food Safety and Inspection Service
                                       Effectiveness of FSIS’ Oversight of the
246010010HY       2009/09/30           Recall by Hallmark/Westland Meat
                                       Packing Company
Total: Food Safety and Inspection Service                                        1




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half   35
                                                              Impact of the OIG




                              AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      FROM APRIL 1 THROUGH SEPTEMBER 30, 2009
                                                                                      QUESTIONED   UNSUPPORTED    FUNDS TO
                                                                                       COSTS AND    COSTS AND     BE PUT TO
AUDIT NUMBER       RELEASE DATE                          TITLE                           LOANS        LOANS      BETTER USE
Forest Service
                                        FS Replacement Plan for Firefighting
086010053SF        2009/07/16
                                        Aerial Resources
                                        Existing Risk to Forest Service’s
087030001HQ 2009/04/03
                                        Economic Recovery Program
Total: Forest Service                                                             2
Grain Inspection, Packers and Stockyards Administration
                                        GIPSA’s Management and Oversight
300160002HY        2009/06/29           of the Packers and Stockyards
                                        Program Follow-up
Total: Grain Inspection, Packers and Stockyards Administration                    1
Multi-Agency
                                        Review of Adjusted Gross Income
500990052TE        2009/06/17
                                        Limitation
                                        Assessment of USDA’s Controls to
506010006HY        2009/07/15           Ensure Compliance with Beef Export
                                        Requirements
Total: Multi-Agency                                                               2
Natural Resources Conservation Service
                                        Farm and Ranch Land Protection
100990006SF        2009/07/06           Program (FRPP) Nationwide Selected             $716,563
                                        Non-Governmental Organization
                                        Rehabilitation of Flood Control
106010001AT        2009/07/15                                                                                    $15,208,001
                                        Dams
106010004KC        2009/06/25           Conservation Security Program                 $1,525,356                  $3,370,602
Total: Natural Resources Conservation Service                                     3   $2,241,919                 $18,578,603
Office of the Chief Financial Officer
                                        Statement on Auditing Standards
                                        No. 70 Report on National Finance
114010030FM        2009/09/25
                                        Center General Controls Review–
                                        Fiscal Year 2009
                                        Agreed-Upon Procedures: Retirement,
                                        Health Benefits, and Life Insurance
                                        Withholdings/Contribution and
114010031FM        2009/09/14           Supplemental Semiannual Headcount
                                        Report Submitted to the Office of
                                        Personnel Management for Fiscal Year
                                        2009
Total: Office of the Chief Financial Officer                                      2




36    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                     Impact of the OIG




                           AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   FROM APRIL 1 THROUGH SEPTEMBER 30, 2009
                                                                              QUESTIONED    UNSUPPORTED       FUNDS TO
                                                                               COSTS AND     COSTS AND        BE PUT TO
AUDIT NUMBER     RELEASE DATE                   TITLE                            LOANS         LOANS         BETTER USE
Risk Management Agency
056010011AT      2009/09/16     RMA Compliance Activities
Total: Risk Management Agency                                            1
Rural Development
                                Existing Risk to Rural Development’s
857030001HQ 2009/04/03
                                Economic Recovery Program
Total: Rural Development                                                 1
Rural Housing Service
                                Request Audit of an Oklahoma
040990211TE      2009/04/28     Rural Rental Housing Management                                                   $83,373
                                Company
040990212TE      2009/08/25     Multi-Family Housing Loans in Texas
                                Controls over Lender Activities in the
046010017CH 2009/07/02          Single Family Housing Guaranteed
                                Loan Program
                                Controls over Eligibility
                                Determinations for Single Family
047030001CH 2009/09/30
                                Housing Guaranteed Loan Recovery
                                Act Funds (Phase I)
Total: Rural Housing Service                                             3                                        $83,373
Grand Total:                                                             25   $2,292,659                     $21,407,252




                                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half   37
                                                          Impact of the OIG




                                         AUDITS WITHOUT MANAGEMENT DECISION
The IG Act has a number of reporting requirements, among them tracking audits without management decision. The following
audits did not have management decisions made within the 6‑month limit imposed by Congress. Narratives for new entries follow
this table. An asterisk (*) indicates that an audit is pending judicial, legal, or investigative proceedings that must be completed
before the agency can act to complete management decisions.

                                           NEW SINCE LAST REPORTING PERIOD
                                                                                                                Amount With No
                                                                                          Total Value at        Mgmt. Decision
Agency          Date Issued                         Title of Report                    Issuance (in dollars)      (in dollars)
                                1. Hurricane Relief Initiatives: Livestock and Feed
FSA             02/02/09                                                                       1,866,412             1,688,247
                                Indemnity Programs (03601-23-KC)
                                2. 2005 Emergency Hurricane Relief
RMA             03/04/09                                                                    217,256,417            217,256,417
                                (05099-28-AT)




38    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                        Impact of the OIG




                                    PREVIOUSLY REPORTED BUT NOT YET RESOLVED
These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual Reports to
Congress. Agencies have been informed of actions that must be taken to reach management decision, but for various reasons the
actions have not been completed. The appropriate Under and Assistant Secretaries have been notified of those audits without
management decisions.


                                                                                              Total Value at   Amount With No
 Agency     Date Issued                             Title of Report                             Issuance       Mgmt. Decision
CSREES     08/17/07        3. CSREES–Tribal 1994 Land‑Grant Institutions (13011-3-At)              951,345           874,986
FAS        02/22/07        4. Trade Promotion Operations (07601-1-Hy)                                     0                 0
MULTI      09/30/03        5. Implementation of Agricultural Risk Protection Act (50099-                  0                 0
                           12-KC)
           02/23/04        6. Homeland Security Issues for USDA Grain and Commodities                     0                 0
                           Inventory (50099-13-KC)
           03/28/07        7. Implementation of Trade Title of 2002 Farm Bill and                         0                 0
                           President’s Management Agenda (50601-12-At)
           03/31/08        8. USDA’s Controls Over the Importation and Movement of                        0                 0
                           Live Animals (50601-12-Ch)
RMA        03/15/02        9. Monitoring of RMA’s Implementation of Manual 14 Reviews/                    0                 0
                           Quality Control Review System (05099-14-KC)
           03/26/07        10. Evaluation of RMA Indemnity Payments for 2004 Florida               415,710           415,710
                           Hurricanes (05099-27-At)
           09/30/08        11. Crop Loss and Quality Adjustments for Aflatoxin Infected         15,951,016        15,951,016
                           Corn (05601-15-Te)




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half     39
                                                            Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION–NARRATIVE                           2. RMA’s 2005 Emergency Hurricane Efforts in Florida
FOR NEW ENTRIES                                                        (05099-28-At, issued March 4, 2009)
1. Hurricane Relief Initiatives: Livestock and                         OIG found that the insurance provider, Rural Community
Feed Indemnity Programs (03601-23-KC, issued                           Insurance Services (RCIS), did not fulfill its contractual
February 2, 2009)                                                      obligations to which it had agreed to under the Standard
                                                                       Reinsurance Agreement for all phases of the insurance
OIG found that FSA needed to revise procedures for future              process—underwriting policies, adjusting claims for losses, and
programs to provide detailed guidance describing the required          reporting its indemnities to RMA. RCIS did not effectively
documentation for applicants and third-party certifiers to             underwrite crop years 2005 and 2006 nursery liability; did not
clearly substantiate claimed livestock losses, and to provide          comply with RMA’s loss adjustment policies and procedures
specific instructions for local FSA office personnel to follow         on claims it processed and paid; and reported inaccurate claim
when an applicant does not have verifiable evidence to establish       information to RMA for reimbursement of the indemnities
a beginning inventory. FSA generally agreed to (1) coordinate          it paid producers. RMA generally agreed with 15 of the
with OIG Investigations on six cases for which FSA requested           18 recommendations for corrective actions. We have reached
investigations of claimed losses, (2) determine the adequacy of        management decision on one recommendation, and we are
documentation supporting beginning and ending inventories,             working with RMA to achieve management decision on the
(3) make a final determination regarding changes made to               remaining recommendations.
2005 Farm Operating Plans that increased program payments,
(4) seek recovery of any unsupported payments associated
with the issues presented in the audit report, and (5) review
the facts and circumstances regarding the establishment of loss
claim periods to ensure they correlate eligible loss periods more
closely with local conditions related to the disaster.




40     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                             Impact of the OIG




INDICTMENTS AND CONVICTIONS
From April 1 through September 30, 2009, OIG completed 151 investigations. We referred 103 cases to Federal, State, and local
prosecutors for their decision.
During the reporting period, our investigations led to 289 indictments and 454 convictions. The period of time to obtain court
action on an indictment varies widely; therefore, the 454 convictions do not necessarily relate to the 289 indictments. Fines,
recoveries/collections, restitutions, claims established, cost avoidance, and administrative penalties resulting from our investigations
totaled about $36.5 million.
The following is a breakdown, by agency, of indictments and convictions for the reporting period.


                                       Indictments and Convictions April 1–September 30, 2009
                      Agency                                  Indictments                                   Convictions*
                       AMS                                          5                                             7
                      APHIS                                        195                                          360
                        FNS                                        251                                          250
                         FS                                         5                                             3
                        FSA                                        33                                            17
                        FSIS                                        6                                            11
                      GIPSA                                         0                                             2
                      NRCS                                          5                                             3
                      OCFO                                          0                                             2
                        OIG                                         1                                             0
                        RBS                                         0                                             5
                       RHS                                          1                                             3
                       RMA                                         10                                            13
                        RUS                                         5                                             3
                       Totals                                      517                                           679
 *This category includes pretrial diversions.




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half          41
                                                        Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                the OIG Hotline received 1,109 complaints, which included
                                                                   allegations of participant fraud, employee misconduct,
The OIG Hotline serves as a national intake-point for reports      and mismanagement, as well as opinions about USDA
from both employees and the general public of suspected            programs. Figure 1 displays the volume and type of the
incidents of fraud, waste, mismanagement, and abuse in             complaints we received, and figure 2 displays the disposition
USDA programs and operations. During this reporting period,        of those complaints.



   Figure 1. Volume and Type


                                                                                             Participant Fraud (693)




                   Employee Misconduct (163)

                   Bribery (0)

                   Reprisal (1)

                   Opinion/Information (68)                                                Waste/Management (154)

                   Health/Safety Problem (30)




   Figure 2. Disposition of Complaints Received


                                                                                                       Referred to USDA Agencies
         Referred to Other Law
                                                                                                               for Response (407)
         Enforcement Agencies (0)

         Referred to OIG Audit or
         Investigations for Review (76)

         Referred to State Agencies (1)

                                                                                                Referred to FNS for Tracking (425)
         Filled Without Referral–
         Insufficient Information (29)


         Referred to USDA or Other Agencies
         for Information–No Response
         Needed (171)




42     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
                                                                Impact of the OIG




                         FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
                                  FOR THE PERIOD APRIL 1 TO SEPTEMBER 30, 2009
Number of FOIA/PA Requests Received                                                                                       69
Number of FOIA/PA Requests Processed                                                                                      72
Number Granted                                                                                                            6
Number Partially Granted                                                                                                  26
Number Not Granted                                                                                                        31
Reasons for Denial
No Records Available                                                                                                      15
Referred to Other Agencies                                                                                                1
Requests Denied in Full Exemption 5                                                                                       0
Requests Denied in Full Exemption 7(A)                                                                                    12
Requests Denied in Full Exemption 7(C)                                                                                    0
Request Withdrawn                                                                                                         6
Fee-Related                                                                                                               0
Not a Proper FOIA Request                                                                                                 1
Not an Agency Record                                                                                                      1
Duplicate Request                                                                                                         0
Other                                                                                                                     5
Requests for OIG Reports From Congress and Other Government Agencies
Received                                                                                                                  9
Processed                                                                                                                 11
Appeals Received                                                                                                          4
Appeals Processed                                                                                                         4
Appeals Completely Upheld                                                                                                 3
Appeals Partially Reversed                                                                                                1
Appeals Completely Reversed                                                                                               0
Appeals Requests Withdrawn                                                                                                0
Other                                                                                                                     0
Number of OIG Reports/Documents Released in Response to Requests                                                          27
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 34 audit reports were posted online on the OIG Web site: http://www.usda.gov/oig




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half   43
                                                            Abbreviations




                      Abbreviations                                            Abbreviations
AMS                  Agricultural Marketing Service                   NCFD    National Computer Forensic Division
APHIS                Animal and Plant Health Inspection               NFC     National Finance Center
                     Service                                          NIFA    National Institute for Food and
ARS                  Agricultural Research Service                            Agriculture
CCC                  Commodity Credit Corporation                     NITC    National Information Technology
CI                   Criminal Investigation (IRS)                             Center
CIGIE                Council of the Inspectors General on             NJTTF   National Joint Terrorism Task Force
                     Integrity and Efficiency                         NMHSD   New Mexico Human Services
CSREES               Cooperative State Research, Education,                   Department
                     and Extension Service                            NRCS    Natural Resources Conservation Service
DCHA                 District of Columbia Housing                     OCFO    Office of the Chief Financial Officer
                     Authority                                        OCIO    Office of the Chief Information Officer
DHS                  U.S. Department of Homeland Security             OGC     Office of the General Counsel
EU                   European Union                                   OIG     Office of Inspector General
FAS                  Foreign Agricultural Service                     OMB     Office of Management and Budget
FBI                  Federal Bureau of Investigation                  OOCIC   Ohio Organized Crime Investigations
FCIC                 Federal Crop Insurance Corporation                       Commission
FDA                  Food and Drug Administration                     OPM     Office of Personnel Management
FNS                  Food and Nutrition Service                       RATB    Recovery Accountability and
FS                   Forest Service                                           Transparency Board
FSA                  Farm Service Agency                              RBS     Rural Business-Cooperative Service
FSAN                 Financial Statement Audit Network                RD      Rural Development
FSIS                 Food Safety and Inspection Service               RHS     Rural Housing Service
GAO                  Government Accountability Office                 RMA     Risk Management Agency
GIPSA                Grain Inspection, Packers and                    RUS     Rural Utilities Service
                     Stockyards Administration                        SNAP    Supplemental Nutrition Assistance
HARCFL               Heart of America Regional Computer                       Program
                     Forensic Lab                                     SSA     Social Security Administration
ICE                  Immigration and Customs Enforcement              TAAF    Trade Adjustment Assistance for
                     (DHS)                                                    Farmers
IRS                  Internal Revenue Service                         USDA    U.S. Department of Agriculture




44     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 2nd Half
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS REPORTING
PERIOD (115 TOTAL)
σσ    FSIS agreed to further strengthen its oversight by analyzing the reasons why foreign countries have rejected
      U.S. beef products when these products are presented for re-entry into the United States.
σσ    NRCS agreed to: (1) develop cooperative relationships with the State agencies responsible for regulating dams so that the
      Federal-State partnership has the authority to require the rehabilitation of dams that threaten public safety; and (2) report to
      Congress on any high-hazard dams in need of rehabilitation that are not rehabilitated due to limitations in the program.
σσ    RHS agreed to develop specific minimum requirements in the SFH Guaranteed Loan Program for lenders’ quality
      control processes, monitor lenders’ compliance with the quality control requirements, and establish procedures for field
      staff to verify that lenders set interest rates in accordance with agency guidelines before issuing the loan guarantees.
σσ    RD agreed to establish at least two additional performance measures to better reflect the
      agency’s success in meeting the purposes and principles of the Recovery Act.
σσ    GIPSA agreed to strengthen controls over investigation resolution; implement a defined process for reviewing, approving, and
      issuing program guidance to ensure consistency; and implement an effective internal review function as previously recommended.


MISSION OF OIG
σσ    OIG assists USDA by promoting effectiveness and integrity in the hundreds of programs of the Department.
      These programs encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal
      and plant health, agricultural production, agricultural product inspection and marketing, rural development,
      research, conservation, and forestry. They affect our citizens, our communities, and our economy.


OIG STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our four goals:
σσ    Strengthen USDA’s ability to implement safety and security measures to protect the
      public health as well as agricultural and Departmental resources.
σσ    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
σσ    Support USDA in implementing its management improvement initiatives.
σσ    Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
                                           To learn more about OIG, visit our website at
                                                   www.usda.gov/oig/home.htm

                                How To Report Suspected Wrongdoing in USDA Programs

                                                          Fraud, Waste and Abuse
                                                     In Washington, DC 202-690-1622
                                                         Outside DC 800-424-9121
                                                      TDD (Call Collect) 202-690-1202

		 Office of
	Inspector
                                                  Bribes or Gratuities
                                    202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)
                                                888-620-4185 (24 hours)




			 General
   The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national origin, age, disability, and
   where applicable, sex, marital status, familial status, parental status, religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or
   part of an individual’s income is derived from any public assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
   alternative means for communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720–2600 (voice
   and TDD). To file a complaint of discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250–9410, or call
   (800) 795–3272 (voice) or (202) 720–6382 (TDD). USDA is an equal opportunity provider and employer.
